<html>
<title> - THE COMMUNIST PARTY'S CRACKDOWN ON RELIGION IN CHINA</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


          THE COMMUNIST PARTY'S CRACKDOWN ON RELIGION IN CHINA
=======================================================================

                                 HEARING

                               BEFORE THE

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 28, 2018

                               __________

 Printed for the use of the Congressional-Executive Commission on China
 
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


              Available at www.cecc.gov or www.govinfo.gov              
              
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
33-238 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dcacb39cbfa9afa8b4b9b0acf2bfb3b1f2">[email&#160;protected]</a>                   
   
        
              


              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

Senate

                                     House

MARCO RUBIO, Florida, Chairman       CHRIS SMITH, New Jersey, 
TOM COTTON, Arkansas                 Cochairman
STEVE DAINES, Montana                ROBERT PITTENGER, North Carolina
JAMES LANKFORD, Oklahoma             RANDY HULTGREN, Illinois
TODD YOUNG, Indiana                  MARCY KAPTUR, Ohio
DIANNE FEINSTEIN, California         TIM WALZ, Minnesota
JEFF MERKLEY, Oregon                 TED LIEU, California
GARY PETERS, Michigan
ANGUS KING, Maine

                     EXECUTIVE BRANCH COMMISSIONERS

                           Not yet appointed

                   Elyse B. Anderson, Staff Director

                 Paul B. Protic, Deputy Staff Director

                                  (ii)


                             C O N T E N T S

                              ----------                              

                               Statements

                                                                   Page
Opening Statement of Hon. Marco Rubio, a U.S. Senator from 
  Florida; Chairman, Congressional-Executive Commission on China.     1

Statement of Hon. Christopher Smith, a U.S. Representative from 
  New Jersey; Cochairman, Congressional-Executive Commission on 
  China..........................................................     4

Tursun, Mihrigul, Uyghur Muslim detained in Chinese 
  ``reeducation'' camp...........................................     6

Hoffman, Dr. Samantha, Visiting Academic Fellow, Mercator 
  Institute for China Studies and Non-Resident Fellow, Australian 
  Strategic Policy Institute.....................................     8

Farr, Dr. Thomas F., President, Religious Freedom Institute......    10

                                APPENDIX

                          Prepared Statements

Tursun, Mihrigul.................................................    28
                                                                     

Hoffman, Samantha................................................    32

Farr, Thomas F...................................................    41


Rubio, Hon. Marco................................................    46

Smith, Hon. Christopher..........................................    48

                       Submissions for the Record

Representative Cases From the Prisoner Database of the 
  Congressional-Executive Commission on China, submitted by 
  Senator Rubio..................................................    50
Letter regarding Statement by Concerned Scholars, submitted by 
  Sean R. Roberts, Director, International Development Studies, 
  Elliott School of International Affairs, George Washington 
  University.....................................................    51
Statement by Concerned Scholars on China's Mass Detention of 
  Turkic Minorities, submitted by Sean R. Roberts................    51

Witness Biographies..............................................    54

                                 (iii)

 
          THE COMMUNIST PARTY'S CRACKDOWN ON RELIGION IN CHINA

                              ----------                              


                      WEDNESDAY, NOVEMBER 28, 2018

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 3:09 p.m., 
in room 106, Dirksen Senate Office Building, Hon. Marco Rubio, 
Chairman, presiding.
    Also present: Representative Smith, Cochairman, and 
Senators King and Daines.

  OPENING STATEMENT OF HON. MARCO RUBIO, A U.S. SENATOR FROM 
 FLORIDA; CHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Chairman Rubio. Good afternoon. This hearing of the 
Congressional-Executive Commission on China will come to order.
    The title of this hearing is the Communist Party's 
Crackdown on Religion in China. We'll have one panel that will 
testify today. It will feature Mihrigul Tursun, a Uyghur Muslim 
who was interned in and survived a Chinese ``political 
reeducation camp.'' That's not what I call it. That's what they 
call it. But in fact, it is something more nefarious than that.
    Translating for her is Ms. Zubayra Shamseden. She is the 
Chinese Outreach Coordinator at the Uyghur Human Rights 
Project. We'll also hear from Tom Farr, president of the 
Religious Freedom Institute, and Samantha Hoffman, a visiting 
academic fellow at the Mercator Institute for China Studies and 
Non-Resident Fellow at the Australian Strategic Policy 
Institute. I want to thank you all for being here.
    The Chinese Government, under the control of the Chinese 
Communist Party, has long imposed harsh policies against 
unregistered Christian churches, Uyghur Muslims, Tibetan 
Buddhists, Falun Gong practitioners, and other religious 
adherents.
    The Commission maintains a political prisoner database. And 
since that database was created, it has featured some 6,275 
cases involving individuals detained because of their religion. 
Currently, there are more than 750 active cases and countless 
others whose names we will never know. The Commission 
consistently advocates for Members of Congress and the 
administration to raise individual prisoner cases, and the 
database is an invaluable tool in that effort.
    Religious freedom in China is a vast topic and we will only 
begin to scratch the surface of it today. But consider the 
following: Uyghur Muslims are rounded up and interned in camps, 
Tibetan monks and nuns are forced to undergo political 
reeducation sessions, Falun Gong practitioners are reportedly 
sent to legal education centers for indoctrination, churches 
are shuttered, crosses removed, and Christian believers 
harassed and imprisoned.
    These are the daily realities in Xi Jinping's China. And it 
leads many observers to describe the current wave of repression 
as the most severe since the Cultural Revolution. Even as the 
government has carried out an extensive campaign to ensure 
ideological loyalty to the Chinese Communist Party above all 
else, impacting various sectors of society, not the least of 
which are religious communities, it has also targeted those who 
represent and advocate for them, not just the communities but 
those who represent them and advocate for them.
    The 709 Crackdown, as it was called, saw scores of rights 
lawyers and advocates detained, arrested, and tortured, forced 
to ingest unknown medications and confess to crimes that they 
did not commit. These brave men and women have been the tip of 
the spear in representing China's repressed and persecuted 
Christians and Uyghur Muslims, Tibetan Buddhists, and Falun 
Gong practitioners.
    Of the rights lawyers who have courageously defended the 
rights of their fellow citizens in Chinese court, several 
continue to serve sentences, including Wang Quanzhang and Gao 
Zhisheng. Those who have independently documented the truth of 
Chinese citizens persecuted for their beliefs became targets of 
the persecution themselves.
    One fearless example is citizen journalist and human rights 
defender Huang Qi. We are extremely concerned that he is in 
danger of making the ultimate sacrifice for telling these 
stories because his government is currently deliberately 
denying him access to medical treatment while he is in prison.
    However, set against this grim backdrop, something 
remarkable has happened--the number of religious adherents in 
China has grown. This shows the utter failure of the Chinese 
Communist Party's policies in this regard.
    Today's hearing provides an opportunity to better 
understand the scale and scope of the current crackdown, to 
identify cross-cutting trends across different religions, to 
examine the elevated role of the United Front Work Department 
and what this means for China's faithful, and to put forward 
policy recommendations to address this crisis.
    This Commission has been particularly seized this year with 
the ongoing crackdown in the Xinjiang Uyghur Autonomous Region 
targeting Uyghurs and other ethnic minority Muslim groups. Our 
annual report that was released in October describes these 
grave abuses at length, abuses which I believe, and most would 
agree, constitute crimes against humanity.
    During a July hearing on Xinjiang, we heard sobering 
testimony from Ms. Gulchehra Hoja, a Radio Free Asia Uyghur 
Service journalist and an American citizen, who had been 
personally impacted by the crackdown. Dozens of her own family 
members have been detained, have disappeared.
    And as sobering as her story is, she is not alone. Not only 
have her fellow Uyghur Service journalists been similarly 
impacted, but countless other Americans have as well. It seems 
that every week the Commission--which we chair--is contacted by 
Uyghurs living in the United States desperate for news about a 
loved one who has vanished into the growing labyrinth of camps.
    Today we are honored to have with us Ms. Tursun. Her story 
is harrowing, and we are truly grateful for her courage in 
coming forward.
    Also grabbing headlines in recent months is the growing 
repression facing Christians in China. Beijing authorities 
recently banned Zion Church, one of the largest unofficial 
Protestant Churches in the city, which typically drew up to 
1,600 worshippers on any given Sunday. Robbed of their worship 
space, members of the church have reportedly taken to quietly 
meeting in parks and in homes.
    In September, reports emerged of authorities burning Bibles 
and compelling Christians to sign papers renouncing their 
faith. Meanwhile the Holy See and the Chinese Government 
apparently have reached an agreement this fall--the precise 
details of which have not been made public--it has been 
reported that Beijing would now recognize the Pope as the head 
of the Catholic Church in China. The Vatican would recognize 
seven excommunicated Chinese bishops appointed by the PRC 
authorities. The Chinese authorities would appoint future 
bishops while the Pope would have veto power over their 
nomination.
    There is growing concern--rightfully so--that this 
agreement may put in greater peril those Catholic believers who 
maintain as part of their faith that they cannot and will not 
worship under clergy that have been selected by the Chinese 
Government. There is also alarm that any deal betrays the 
memory of Catholics who refused to renounce papal supremacy and 
were persecuted for it, while demoralizing those who still 
stand faithful.
    As the hearing title denotes, the Communist Party is at the 
center of this crackdown. The Party Central Committee issued a 
massive restructuring plan for Party and government agencies to 
be completed by the end of this calendar year. The United Front 
Work Department, which Xi Jinping, like Mao before him, calls 
the magic weapon of the Communist Party, was further empowered 
in this reorganization.
    This year its role in overseeing religious affairs was 
expanded, underscoring the Party's enduring fear at the growth 
of religious belief as a threat to their grip on power. As the 
Party conducts United Front work to ensure that outside groups 
are in line with its agenda, the evidence is also clear that 
Chinese officials are only too willing to expand their 
repression overseas to intimidate and harass Americans and 
legal permanent residents of the United States, including those 
in the Uyghur community.
    Ms. Tursun's story reminds us that China's suppression of 
religious faith and religious communities is real. It is evil. 
It is too horrendous to ignore.
    In the 21st century, we must not, cannot, and should not 
accept the mass internment of individuals based on their 
religious faith, on the basis of their cultural identity. Nor 
can we accept the efforts to stamp out all unofficial religious 
communities in China that maintain as a matter of faith that 
they do not want to be beholden to the leadership of the 
Chinese Government, or frankly, any government.
    Now without objection--well, I wanted now to turn it over 
to Congressman Smith, who's our cochair, for his opening 
statement. And then I want to hear from our witnesses, and I 
want to thank you all for being here.

STATEMENT OF HON. CHRISTOPHER SMITH, A U.S. REPRESENTATIVE FROM 
 NEW JERSEY; COCHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION ON 
                             CHINA

    Cochairman Smith. Thank you very much, Mr. Chairman.
    The present-day assault on religion in China is the most 
comprehensive attempt to manipulate and control religious 
communities since the Cultural Revolution. What is happening 
under Xi Jinping's leadership is a systematic effort to 
transform, co-opt, or destroy the very nature of religious 
communities.
    Regulations of religious affairs issued in February 
tightened existing restrictions, and new draft regulations will 
further clamp down on religious expression online. Churches, 
mosques, and temples have been demolished, crosses destroyed, 
children under the age of 18 are prohibited from attending 
services, and the Communist Party is now commissioning a new 
religious text that will remove content unwanted by the atheist 
Communist Party.
    Xi Jinping talks about realizing the China Dream, but when 
Bibles are burned, when a simple prayer over a meal in public 
is an illegal religious gathering, and when over a million 
Uyghur and Kazakh Muslims are interned in political reeducation 
camps and forced to renounce their faith, that dream is an 
unmitigated nightmare. Xi Jinping's war on religion is also a 
distinct challenge to U.S. religious freedom diplomacy and to 
international standards on freedom of religion.
    There is a dire need to continue shining a light on the 
stunning and outrageous detention of nearly a million Uyghurs 
and other Muslim ethnic minorities. Senator Rubio and I have 
tried to be a voice for those repressed.
    Ms. Tursun's powerful testimony today reminds us that we 
cannot be silent when the Chinese Government is constructing a 
high-tech police state in Xinjiang Province whose goal is the 
forced assimilation of an entire ethnic minority population and 
the sinicization of their religious beliefs and practices.
    I do commend the administration, particularly Secretary 
Pompeo and Vice President Pence, for speaking out forcefully. I 
would urge the administration to support the bipartisan Uyghur 
Human Rights Policy Act that Senator Rubio and I introduced, 
and to sanction Chinese officials and businesses complicit in 
these crimes against humanity.
    In the past year--and it was referenced by our chairman--
pressure has mounted on independent Protestant and Catholic 
churches. Clergy are now in prison--they have been, but even 
more so--churches have been forcibly closed, and the human 
rights lawyers who defend religious believers have been jailed, 
disappeared, or tortured into silence.
    Gao Zhisheng, Jiang Tianyong, and so many others, have been 
detained, disappeared, and tortured for standing up against 
persecution.
    An open letter signed by over 500 Protestant leaders 
inspires and should motivate each and every one of us to double 
our efforts on behalf of those who are fighting this 
repression. In the midst of an intense campaign of repression, 
these 500 Protestant leaders wrote: ``For the sake of the 
Gospel, we are willing to suffer all external losses brought 
about by unfair law enforcement. Out of a love for our fellow 
citizens, we are willing to give up all of our earthly rights. 
For the sake of the Gospel, we are prepared to bear all losses, 
even the loss of our freedom and our lives.'' This type of 
courageous conviction requires not only our admiration but our 
action.
    Let me turn just for a brief moment to the issue of 
Catholicism in China, where a deal has been struck that will 
reportedly give the Pope veto power over Chinese Government-
approved candidates for bishop. Vatican Secretary of State 
Cardinal Pietro Parolin admits, ``It is not a good deal,'' but 
believes it is important to unify the underground Catholic 
Church and the state-sanctioned Catholic Patriotic Association.
    Cardinal Zen, however, bishop emeritus of Hong Kong, has 
questioned whether Vatican officials making these decisions 
``know what true suffering is.'' The reports are that the deal 
is provisional and full details are secret. However, the devil 
is in the details, including the fate of underground churches, 
the 30 underground bishops appointed previously over Beijing's 
objections, and Vatican relations with Taiwan.
    I would just note parenthetically that back in 1994, I met 
with Bishop Xu of Baoding. He celebrated mass. He was out of 
prison just for a very brief time, was re-arrested a few years 
later, and he spent probably about 40 years, at least 30 plus, 
incarcerated. He had absolutely no animosity to the Chinese 
state. He said, As a true Christian, I love them. I pray for 
them, even though they beat me. Bishop Xu of Baoding, an 
amazing man. He is one of those underground Catholic bishops, 
and as we all know, there are several others who are still 
being held in detention.
    I do hope and pray that this agreement will bring true 
religious freedom for Catholics in China, but I have my doubts. 
Since the agreement was reached, underground priests are 
detained, pilgrimage sites have been closed, crosses continue 
to be toppled from churches, formerly excommunicated community 
bishops were welcomed in Rome, and the United Front Department 
officials in October convened a reeducation session for 
priests. So that's the harbinger, I think, of some very bad 
additional things to come.
    The President and Xi Jinping will meet, as we know, in 
Argentina this week seeking ways to defuse U.S.-China tensions. 
It should be conveyed to Xi Jinping in absolute clarity by our 
President that his war on religion is not only an egregious 
wrong against the Chinese people, it is also highly 
counterproductive strategy. Taking a hammer and sickle to the 
cross or jailing a million Muslims will not only ensure that a 
tougher China policy will be widespread and bipartisan but will 
garner even global support.
    We need to do more in this area. This hearing, again, I 
think helps us get further clarity, so we can speak 
authoritatively and passionately on behalf of religious 
freedom.
    Thank you very much.
    Chairman Rubio. Thank you.
    And now I want to begin with this. I read this testimony 
earlier and it is--I want everybody to hear it. It is 
incredibly powerful. It is the testimony that we're about to 
hear from Ms. Tursun and it is going to be translated.
    So I thank you for being here, for your bravery and courage 
in appearing, and for the great service you are providing your 
fellow men and women in the world in testifying today about the 
reality of what is happening, what happened to you, and what is 
happening to so many.

STATEMENT OF MIHRIGUL TURSUN, SURVIVOR OF TORTURE IN A CHINESE 
                         DETENTION CAMP

    Ms. Tursun. I would like to thank the United States 
Government and the American people for saving my life and 
bringing me to America, the land of the free.
    Because my English is not good enough, I would like my 
translator to read my statement.
    My name is Mihrigul Tursun and I am 29 years old. I am a 
Uyghur. Over the last three years, I was taken to Chinese 
Government detention centers three times. I spent a total of 10 
months in the camps.
    Thank you for giving me the opportunity to testify about my 
personal experience. I ask that my written testimony be 
submitted for the record.
    [The prepared statement of Ms. Tursun appears in the 
Appendix.]
    In May of 2015, I returned to China from Egypt where I 
studied English. I was arrested at the airport and my two-
month-old triplets were taken away. The officers handcuffed me, 
put a dark sack over my head, and took me to a detention 
center.
    After three months, they told me I could be with my sick 
children until their health improved, and released me. My 
oldest son had died in their hands.
    In April 2017, I was taken to a detention center for the 
second time. I was interrogated for four days and nights 
without sleep. After being in the camp for three months, I kept 
having seizures and losing consciousness. I was finally 
released to a mental hospital. From there, my father took me 
home and I gradually recovered.
    In January of 2018, I was detained for the third time. They 
put chains on my wrists and ankles, put a black sack over my 
head, and took me to a hospital. I was stripped naked and put 
under a big computerized machine. Then I was dressed in a blue 
uniform with a yellow vest worn by serious criminals and taken 
to a camp.
    Now I would like to tell you about what I experienced in 
these camps. I was taken to a cell which was built underground 
with no windows. There were cameras on all four sides so the 
officials could see every corner of the room. There were around 
60 people in one of the cells where I was held. At night, 15 
women would stand up while the rest of us would sleep sideways, 
and then we would rotate every two hours. Some people had not 
taken a shower in over a year.
    Before we ate breakfast--which was water with very little 
rice--we had to sing songs hailing the Communist Party. We had 
to repeat in Chinese, ``Long live Xi Jinping,'' and ``Lenience 
for those who repent and punishment for those who resist.'' 
Anyone who could not memorize a book of slogans and the rules 
within 14 days would be denied food or beaten. Sometimes there 
was no food all day, and when there was food, it was mostly a 
steamed bun.
    They forced us to take unknown pills and drink some kind of 
white liquid. The pill caused us to lose consciousness and 
reduced our cognition level. The white liquid caused loss of 
menstruation in some women and extreme bleeding in others and 
even death.
    I also experienced torture in a tiger chair the second time 
I was detained. I was taken to a special room and placed in a 
high chair. Bands held my arms and legs in place and tightened 
when they pressed a button. The guards put a helmet on my 
shaved head. Each time I was electrocuted my whole body would 
shake violently, and I could feel the pain in my veins. I 
thought I would rather die than go through this torture. I 
begged them to kill me. They insulted me with humiliating words 
and pressured me to admit my guilt. They told me my mother and 
son had died, my father was serving life in prison, and that my 
family was torn apart because of me.
    In another cell where I was held, there were 40 women 
between the ages of 17 and 62. When I left the cell after about 
three months, there were 68. Most of them were educated 
professionals such as teachers and doctors.
    I witnessed nine deaths in my cell in three months. I 
cannot imagine how many deaths there must be in all of the 
camps.
    In the camps I met a 23-year-old woman named Patemhan. Her 
crime was attending a wedding in 2014 that was held according 
to Islamic tradition, where people did not dance, sing, or 
drink alcohol. She said 400 people who attended that wedding 
were all taken to the camps. When she was taken, she had left 
her two kids in the field. She agonized every day about where 
her children were. One night she suddenly dropped to the floor 
and stopped breathing. Several people with masks came and 
dragged her away.
    After more than three months in the camp, I came out and 
was again able to see my kids. Thanks to the help of many 
wonderful people, I was able to come to the United States. 
Words cannot describe how joyful I felt when I landed in 
Virginia two months ago. But I'm not completely free from my 
traumatic experience and I fear that the Chinese Government is 
still monitoring me. My brother recently left a voicemail on my 
cell phone. He said, ``How could you do this to your parents? 
What kind of daughter are you? You should go to the Chinese 
Embassy right away and denounce all of the things you said 
about the Chinese Government in the interview you gave to Radio 
Free Asia and tell them you love China. Tell them you were 
pressured by the Uyghur organizations in the U.S. to lie about 
your detention and torture in the camps. And take back 
everything you said. Otherwise, China can get you wherever you 
hide.''
    I am trying to start a new life in America, go to school, 
and take care of my son and daughter. But now I'm terrified 
that the Chinese Government could still threaten me from so far 
away.
    Please protect the Uyghurs in America from the Chinese 
Government's threats. Please help Uyghur refugees around the 
world who will be taken to the camps if they are forced to 
return to China. Please take action to save the people who are 
being tortured right now.
    I hope the U.S. Government will take strong action against 
the officials responsible for torturing me and for the death of 
my little boy and the death of so many innocent Uyghur people. 
My people look to the United States as a beacon of hope. It is 
the only country that can tell China to stop its ethnic 
cleansing of the Uyghur people.
    I still remember the words of the officers when I asked 
what my crime was. They said, ``Being a Uyghur is a crime.''
    Distinguished Congressmen--if you ever go to China, please 
ask where my mother, father, and siblings are. Thank you.
    Chairman Rubio. Thank you very much.
    Ms. Hoffman? Take the microphone, please.

 STATEMENT OF DR. SAMANTHA HOFFMAN, VISITING ACADEMIC FELLOW, 
MERCATOR INSTITUTE FOR CHINA STUDIES; AND NON-RESIDENT FELLOW, 
  AUSTRALIAN STRATEGIC POLICY INSTITUTE'S INTERNATIONAL CYBER 
                         POLICY CENTRE

    Ms. Hoffman. Chairman Rubio, Chairman Smith, distinguished 
members of the Commission, thank you for the opportunity to 
discuss this topic of critical importance.
    I will begin with four observations about the nature of the 
Chinese Communist Party's crackdown on religion. First, the 
CCP's crimes against scapegoated religious groups are directed 
from the highest level of the Chinese Communist Party. The 
clearest central-level authority directing these actions is the 
United Front Work Department of the CCP Central Committee.
    The United Front Work Department oversees ethnic affairs 
and, by definition of this role, is ultimately responsible for 
the concentration, internment, and reeducation of predominantly 
Uyghur Muslims in Xinjiang. The United Front Work Department 
oversees religious affairs and the effort Xi Jinping describes 
at the 2015 Central United Front Work Department Conference as 
persisting in the direction of sinicization of religion in 
China.
    It is by definition not only responsible for the mass 
internment of Muslims in Xinjiang but also the growing 
persecution of Christians and other religious groups in China.
    Number two, the CCP's actions are linked to a state 
security strategy that prioritizes the protection and expansion 
of the CCP's power, not the protection of China with or without 
the CCP.
    The crackdown on religion is a visible manifestation of a 
much larger effort to defend the CCP's version of the truth. 
Embedded in the explanation for the sinicization of religion is 
the closely related CCP concept of cultural security. Cultural 
security does not protect Chinese civilization. Instead, it 
aims to eliminate ideological threats that political opponents 
can use as vehicles to challenge the Party.
    In reality, the CCP's claims to hold the truth may be more 
strongly contested by everyday social demands that, 
intentionally or not, expose falsehoods in the CCP's narrative. 
It is one likely reason why the Party, in addition to religious 
communities, also sees, for instance, the women's rights 
movement or activities of student labor organizers in China as 
a threat. Beyond mobilization power, it exposes the CCP's false 
narrative that Chinese culture and the Chinese people are 
somehow different in regard to universal human rights.
    Third, the CCP's choice to employ language such as a 
``people's war against religious extremism'' to describe its 
actions suggests that the CCP is acting on a broader threat 
perception. This threat perception has always been present in 
the CCP's thinking, but the clearest source of the present-day 
crackdown is the Falun Gong sit-in demonstration in 1999 where 
senior members of the Chinese Communist Party, including of the 
People's Armed Police and the PLA, were involved in using the 
same state security resources that were meant to protect the 
Party, to mobilize--and instead of using those resources 
against the group that they are supposed to mobilize against, 
actually being a part of that group.
    The Color Revolutions in eastern and central Asia during 
the early 2000s are another example. Making scapegoats of 
groups like Uyghurs, or Christians, or Tibetans, the CCP points 
to examples like the Color Revolutions and Jasmine Revolutions, 
or even the Velvet Revolutions in Eastern Europe to justify the 
tightening and expanding of its own power.
    The CCP warns that internal and external hostile forces 
seek to infiltrate political parties, religious and ethnic 
groups and incite division in Chinese society. The anxiety is 
aimed at shoring up loyalty within the Party and convincing 
Chinese society of their need for the Party's paternalism.
    Finally, the root cause of the CCP's actions are not the 
victims of its aggression. The victims are scapegoats used to 
mask the CPC's core weaknesses and to justify the expansion of 
the CCP's unchecked power. The core weaknesses are the unending 
contestation for power within the Party and the Party's 
struggle to maintain control over China's narrative. These 
weaknesses do not make the CCP's failure inevitable. In fact, 
as the CCP's victims in Xinjiang have learned, this combination 
of strength and weakness can be catastrophic.
    So, if you take one point away from my testimony today, 
it's that in order to help the victims in Xinjiang and help 
other persecuted religious groups in China, we need to think 
more broadly than those groups themselves. And that means that 
the Committee needs to think about long-term responses. And I 
don't have those answers for you today. But what I can offer 
you are short-term solutions that can at least help to stall 
the CCP's progress.
    First, a strong response to the CCP's persecution of 
religious groups must address the problem at its core. 
Individuals in Xinjiang, such as Party Secretary Chen Quanguo, 
are directly implementing the CCP's securitization policies, 
and Xinjiang should be immediately sanctioned. Sanctions should 
not, however, end at the local and regional levels of 
government.
    Beyond the actual source of the problem is a broader state 
security strategy that is clearly centrally directed. The U.S. 
Government should start by targeting all officials connected to 
the control of religions. This includes known members of the 
State Ethnic Affairs Commission, the Central Committee Xinjiang 
Work Coordination Small Group office, and high-level officials 
in the United Front Work Department. I've listed several 
specific individuals in my written testimony.
    Second, sanctions should also extend to both Chinese and 
international companies that are involved in the construction 
of the Chinese surveillance state, which support the CCP's 
human rights violations. It's not a complete solution, but it 
could stall the CCP's progress and buy time while policymakers 
research more long-term effective policies. And I would just 
add that if anyone is concerned about economic damage to U.S. 
companies, that line would put a monetary price on human life.
    Finally, overseas Chinese communities must be protected. 
Western governments must take steps to protect overseas Chinese 
from all kinds of CCP encroachment that has taken place for 
decades but are now increasingly augmented and drawn to our 
attention.
    Thank you.
    Chairman Rubio. Thank you.
    Dr. Farr.

 STATEMENT OF DR. THOMAS F. FARR, PRESIDENT, RELIGIOUS FREEDOM 
                           INSTITUTE

    Mr. Farr. Chairman Rubio, Cochairman Smith, Senator King, 
thank you for holding this important hearing.
    Before I begin, let me say that after hearing the testimony 
of the brave Ms. Tursun, no one can doubt the evil of the 
regime we are here to discuss.
    Thank you for inviting me to give my views on the Vatican's 
provisional agreement with that regime. It's noteworthy that 
this Sino-Vatican agreement was concluded amid the most 
systematic and brutal attempt to control Chinese religious 
communities since the Cultural Revolution.
    President Xi Jinping's strategy includes persecution 
intended to alter the fundamental nature of at least three 
religions. One is Islam as practiced by the Uyghurs in Xinjiang 
Province, which we've heard about. Another is Tibetan Buddhism, 
the object for decades of a brutal Chinese strategy of violence 
and cultural destruction.
    The third is Roman Catholicism, whose distinctive teachings 
on human rights and religious freedom for all people pose a 
particular obstacle to the Chinese state, especially to the 
Marxist-Leninist understanding of religion, human nature, and 
human dignity.
    I want to explore the possible effects of the provisional 
agreement on what is a very dangerous moment for Catholics in 
China. The Vatican's primary goal is said to be that of 
unifying Chinese Catholics by approving bishops who are in 
communion with Rome but at the same time recognized by Chinese 
authorities. Other objectives are said to include reducing 
Chinese persecution of Catholics.
    These are worthy goals, but it's difficult to see how the 
agreement will achieve them or help achieve them. Beijing has 
spent decades attempting to manipulate and control the Catholic 
Church, especially through the government-controlled Catholic 
Patriotic Associations.
    Those Catholics who remain loyal to the magisterium of the 
Church, the Holy Father, and fundamental Catholic teachings on 
human dignity and human rights are part of an underground 
Church whose adherents are subject to arrest, torture, and 
disappearance. Unfortunately, although the agreement is only 
two months old, there are already signs that its provisions 
will exacerbate this divide rather than heal it. The text of 
the agreement, as Mr. Smith said, has not been made public, but 
its contours are generally known.
    Chinese Catholic bishops will now be chosen in a process 
that begins with local Communist-controlled Catholic Patriotic 
Associations presenting the names of candidates to dioceses 
where a vacancy for a bishop occurs. Diocesan priests and lay 
Catholics will then vote on the candidates. The winner's name 
will be sent to the government-controlled Council of Bishops 
who will then provide the name to the Vatican. There the 
candidate could either be accepted or rejected by the Pope.
    The Vatican apparently hopes that the Pope's veto power 
will ensure the orthodoxy of the new bishops and facilitate 
reconciliation among China's divided Catholics. Unfortunately, 
it seems to me highly unlikely that a Chinese-controlled 
Council of Bishops will forward to the Vatican the name of a 
bishop candidate who is a faithful Catholic. A man chosen in 
this process is unlikely to be a witness to the truth 
proclaimed by the Church about, for example, the sanctity of 
life, human dignity, or religious freedom for everyone. It 
seems far more likely that the name of a candidate bishop sent 
to Rome will be chosen for his acquiescence to the Communist 
regime if not for his fidelity to its anti-Catholic purposes. 
Of course, the Pope can veto such candidates, but for how long? 
Vacancies in bishoprics do not harm the Chinese Government. 
They harm Chinese Catholics.
    The insidious effects of this bargain may already have 
shown themselves. Two official Chinese bishops attended the 
recent Synod on Youth in Rome, as Mr. Smith mentioned, 
apparently at the invitation of Pope Francis. But these bishops 
were and are Communist apparatchiks. They are both leaders of 
the aforementioned Council of Bishops controlled by the 
government. Unaccountably, the two left Rome before the synod 
was finished. Perhaps, Mr. Smith, they left to preside over the 
reeducation classes for priests you mentioned. Whatever the 
cause of their abrupt departure, it was not the action of 
bishops faithful to the Holy Father or the Catholic Church.
    Unfortunately, the persecution of Chinese Catholics has not 
decreased. If anything, it has intensified since the signing of 
the agreement. Mr. Smith gave a couple of examples. Let me 
mention also that within a month of the signing of the 
agreement, two Marian shrines had been destroyed by Communist 
officials in China.
    Unfortunately, the Sino-Vatican agreement seems to mirror 
the Vatican's failed Cold War diplomacy of the 1960s which was, 
frankly, unrealistic about the evil of Communism. It deeply 
wounded the Church in parts of Eastern Europe. On the other 
hand, the Vatican does have a distinct moral authority to 
counter the root causes of totalitarian evil, just as Pope John 
Paul II did in the 1980s in collaboration with President Reagan 
and Prime Minister Thatcher.
    In my view, the Holy See's role should be now as it was 
then, to press for human rights and especially for religious 
freedom for all religious communities in China and elsewhere. 
Given the current vile assaults on Uyghur Muslims and Tibetan 
Buddhists, the Vatican should be standing with them.
    As for China's Catholics, the Vatican should demand nothing 
less than libertas ecclesiae, the freedom of the Church to 
witness to its adherents, to the public, and to the regime, its 
teachings on human dignity and the common good.
    I sincerely hope I am wrong about the long-term effects of 
the Sino-Vatican agreement, but I don't believe it will help 
the Roman Catholic Church, China's Catholic minority, or the 
cause of religious freedom in China. The Chinese know what they 
are doing. The Vatican's charism in China, on the other hand, 
is not diplomacy but witness to the truth about God and man.
    Thanks for inviting me to address this important topic.
    Chairman Rubio. Thank you all for being here.
    I'm going to now turn it to--we have a vote at 4 o'clock. 
I'll stay--we have a few minutes after 4 to continue--and 
obviously the cochair is here. But I wanted to give Senator 
King a chance at the first question.
    Senator King. Thank you, Mr. Chairman.
    First, I want to thank our witnesses for moving and 
important testimony. It's rare that we have an opportunity to 
hear so directly about something like this that is so abhorrent 
and so at variance. In fact, it's almost impossible for us to 
understand, where freedom of religion is a basic premise of our 
entire society.
    And that leads me to my first question--and maybe Mr. Farr, 
you could tackle this. Why are they doing this? Why would a 
country that has a great culture, and history, and tradition, 
and strength, and a lot of entrepreneurship and--why are they 
being so cruel to relatively small groups that would appear at 
least to be a little--not a major threat to the endurance of 
their regime? Why are they going out of their way to do 
something which is bound to bring down upon them the opprobrium 
of the world?
    Mr. Farr. It's a good question, Senator, and a big 
question.
    Let me give you what I think--to cut to the chase--is the 
answer. Religion threatens Communism. Communism is a 
totalitarian understanding of the world and of what a human 
being is. Most religions posit an authority greater than the 
state. This constitutes a threat to the state, which is one 
reason we have the guarantee of religious free exercise in the 
First Amendment to our Constitution. Our Founders wanted to 
limit the power of the state by protecting the right of people 
to have a fidelity to something that's more important than 
government. Communism is precisely the opposite of this.
    So I think religion by its nature threatens them, 
particularly those religions that have deep theological reasons 
for fidelity to an authority greater than the state. The 
Catholic Church is distinguished by its adherence not only to 
an authority beyond the state, but to the right of everybody, 
every citizen in a state, to have religious freedom. That view 
constitutes a threat to the regime. I think that is the answer 
to your question, although it is more complicated than that. 
But I think that is the core answer.
    Senator King. It just seems that it is a disproportionate 
response to what is a relatively small threat given the numbers 
of people that----
    Mr. Farr. If I might just add, sir, the ``threat'' is 
growing because people are converting to religion in China. 
There is one estimate, speaking here about Christians, that 
within 20 years, China will have more Christians than any other 
country in the world. This scares the dickens out of the 
Chinese.
    Senator King. Ms. Tursun, let me ask you a variation of the 
same question. Why do you think you were treated so abominably? 
What threat did you present to the Government of China?
    Ms. Tursun. In China, many are facing religious 
persecution; it is not only just me. I am just one very simple 
representative of many.
    Senator King. But why, is my question.
    Ms. Tursun. Just because we are the owners of that land. 
The land belongs to us.
    Senator King. Let me ask another question. Ms. Hoffman, you 
talked about some kind of response. Is the United States 
responding in any concrete way today to this gross violation of 
human rights? Are there sanctions in place? Are there high-
level discussions, negotiations--anything? Is there--are we 
doing anything about this is my question.
    Ms. Hoffman. I think--just to first add to your first 
question in order to answer that question. The root causes of 
what the CCP is doing in Xinjiang and elsewhere are the Party's 
weaknesses. It is the contestation for power within the Party 
that's unending. It is the Party's fear of loss of narrative 
control. And so it scapegoats groups like the Uyghurs to 
justify shoring up loyalty within the Party as well as to 
justify to the people their need for the Party's control.
    So I think that while it is important that the U.S. 
Government has certainly called attention to the issue in 
Xinjiang, I think that the U.S. Government needs to be thinking 
longer-term and broader-term.
    Senator King. Have we imposed any Magnitsky Act sanctions 
or anything of that nature?
    Ms. Hoffman. I believe one. Yes, one. But I think that 
sanctions need to go to the highest levels of the Chinese 
Communist Party. But that's only a starting point. Solving the 
problem is thinking long-term and I don't know that the U.S. 
Government is doing that yet.
    Senator King. A 19th century philosopher said, ``Power 
corrupts, and absolute power corrupts absolutely.'' And we may 
be seeing that playing out before our eyes when there are no 
essential checks and balances. This is, unfortunately, a part 
of human nature.
    Thank you all for your testimony, and I appreciate your 
being here today.
    Chairman Rubio. Thank you, Senator King.
    I wanted to--first of all, Ms. Tursun, I wanted to thank 
you for coming. I know you are--I could see how difficult the 
testimony was for you.
    Ms. Tursun. Thank you.
    Chairman Rubio. And I want others who are here--I can see 
people holding up pictures and articles about your loved ones 
who are unaccounted for. And I want you to know we see that and 
we--if we were to--just the sheer volume, the number of cases 
and individuals that have gone through this is so massive that 
it would take forever to document it. But none of them are 
forgotten. The reason why we spend--this is I believe our 
fourth hearing, with other activity that we have done and--but 
today you've been their voice, Ms. Tursun, and I wanted to 
thank you for that.
    I have three questions that I hope you can address. The 
first is you testified briefly about fear--that even here in 
the United States you are being watched, harassed and followed. 
That is disturbing to us that someone living in this country, 
the Chinese Government could try to intimidate, whether it be 
through phone calls or other activity that you described in 
your written testimony.
    The first is, we obviously will talk to you after this to 
ensure that appropriate law enforcement authorities are aware 
of this to ensure that nothing--that you will be safe in this 
country and that nothing happens. And anyone knows that if 
anything were to ever happen, we would know who did it; we 
think that is the strongest form of protection. You deserve 
that.
    But I wanted--if you could briefly describe--have you had 
any incidents recently where you feel, not just the phone call, 
but individuals have followed you or you felt suspicious that 
you have been in any way the target of harassment potentially 
by those working on behalf of the Chinese Government?
    Ms. Tursun. Since I came to America, other than that kind 
of pressure that I have received from my family members like my 
father and my brother's text messages and also two suspicious 
phone calls, about two weeks ago in one of the markets in 
Virginia, I was catching an Uber and traveling and some person 
who was wearing black glasses, and also a black hat, came up to 
the car and was trying to talk to me through the windows of the 
car. And the car that dropped him off drove off in a different 
direction. And I was scared when he tried to talk to me through 
the window. And then the driver asked me, Do you know him? I 
said, No, I do not know. But I see he is Chinese. I understand.
    And I let the driver go fast, help me to run away and we 
went the other way and this driver brought me to my house. But 
I am always worried all the time. I do not feel I am safe here.
    The Translator. For example, Ms. Tursun is just thinking 
about this article she brought--it's from the Global Times--
they mentioned her by name in that article, saying that what 
she said in the interview she had given to Radio Free Asia--
that everything she said was a lie.
    And that reporter says that the Global Times recently 
reported from one of the reeducation camps of Xinjiang that the 
situation--the reporter described it completely different and 
says that what Tursun portrayed or described about the camps is 
even--that that kind of situation doesn't exist in Chinese 
prisons.
    So this is another threat that she felt directly from the 
Chinese Government which specifically mentions her name in the 
article.
    Chairman Rubio. The second question I have is, in your time 
in camp, were you ever forced to perform work or labor, any 
forced labor?
    Ms. Tursun. No, they don't allow us to go out from the 
room. They just lock us in the room. They don't allow us to be 
out.
    Chairman Rubio. So in her detainment, she was not even 
allowed to go out and even--they were basically detained in a 
sort of confinement with a handful of other people, some of 
whom died?
    Ms. Tursun. It is a cell. We have been locked up with many 
other people and we--if we recite, read something, we do it 
here. If we go to the bathroom, the toilet, we do it in the 
same place. If we stay, we just stay together. I mean if people 
die, they die among us. And I have witnessed nine people die in 
front of me.
    Chairman Rubio. There have been reports in the press about 
the forced collection of DNA from people throughout China, but 
particularly in the Xinjiang Region, some of it under the guise 
of a physical exam, others forced to provide blood samples and 
so forth as part of getting passports.
    In your time there, whether it was getting the passport--
are you aware of these forced efforts to make people undergo 
physical exams, give blood samples and other--was that 
something you were subjected to either in confinement or when 
you applied with the authorities on entry or on exit?
    Ms. Tursun. Yes, I have witnessed that kind of practice, 
taking the blood sample and doing DNA tests. Before 2015, when 
you applied for a passport, that was one of the requirements, 
that you do have to have a blood test. And after 2015, doing 
blood tests and DNA tests, everything became compulsory. That 
compulsory practice--they applied it to from a one-month-old 
baby up until whatever age. So everybody was required to do 
blood tests as well as DNA sampling.
    Chairman Rubio. And you may or may not have any reason to 
know this, but the authorities who have compelled the turning 
over of DNA of everyone, a few months ago, put out a contract 
for DNA sequencers to be able to account for all of this and 
creating this massive database.
    And I regret to--it is a great shame that one of the 
companies who has provided those DNA sequencers and frankly 
takes great pride in the work they do, is an American company, 
Thermo Fisher Scientific, who just recently appeared in an 
article discussing what a great leader Xi Jinping is, which I 
imagine from their perspective is driven by the money they are 
making in that marketplace.
    And it gets to the broader issue of calling out these 
American companies who are participating in assisting them in 
the compulsory collection of DNA for purposes of collecting 
this massive database against the consent, or absent the 
consent, or even the knowledge of the people it is being 
collected from.
    And I apologize because I do have a vote, and the 
cochairman is here and is going to handle--he's got questions.
    I only wanted, Drs. Hoffman and Farr, I wanted to just 
basically say that it seems to me that at the core of all this 
is an obsessive desire on the part of the Chinese Government--
which is not new--to create a sort of unified national identity 
which must be stripped of anything that competes with it: 
ethnicity, religion, ethnic cultural tradition. There can be 
nothing that competes with it.
    And they appear, as they have been in the past, to be 
extremely ruthless in their willingness to stamp that out at 
any cost, whether it's in Tibet, or Xinjiang, or any other part 
of their country. And I would add to that, that in addition to 
that willingness to stamp out anything that competes with the 
Party for people's loyalties or this national identity, that 
when they use terms like ``extremism'' and they use terms like 
``dangerous,'' what they mean by those terms is not violence or 
advocacy of violence. What they mean by ``extremist'' is you 
don't agree with them, or you have loyalties to God or 
loyalties to a culture and identity that is not the one they 
want you to have. Is that an accurate assessment of what their 
goal is? Is that an accurate assessment of how they define 
``extremism'' and ``dangerous''?
    Ms. Hoffman. Fairly accurate--the Chinese Communist Party, 
its concept of what we would call national security, I think is 
better translated as Party state security, and Party state 
security is fundamentally about protecting the Chinese 
Communist Party. And that means that there are dimensions that 
are dealing with the internal struggle for power within the 
Party and then dealing with everything outside of the Party, 
controlling the narrative, controlling the ideological space to 
ensure that the Chinese Communist Party can stay in power.
    And that means that these state security methods extend far 
beyond China's borders. And that's why you see the harassment 
of overseas Chinese, things like the social credit system, to 
try to essentially ensure that people can manage themselves to 
adhere to the Party's will.
    It's a long-term process that's not new under Xi Jinping. 
It's something that the Party has been doing forever. The 
changes at the beginning of the Reform Era were that the 
Chinese Communist Party can no longer rely on ideological 
mobilization alone. And then it had to come up with new ways 
for enabling Mao's mass line, essentially the idea that the 
Party shapes and manages how people behave. So it's using 
things like the surveillance state to attach political control 
to economic and social development.
    I hope that answers your question.
    Mr. Farr. I think you're exactly right, Senator. I think 
the Chinese are no different than the other totalitarian 
regimes of the 20th century--Hitler, Stalin, and Mao. They want 
to label as extreme anything that challenges them.
    And just two things that I would cite as evidence--one is 
bringing the State Administration for Religious Affairs, which 
has been there in one guise or another for a long time, closer 
to the Politburo by placing it officially under the United 
Front Work Department. But also the fact that parents can be 
given criminal sanctions if they allow their children to be 
exposed to religious education.
    That just tells you everything you need to know. They are 
afraid that their citizens are going to be infected with the 
virus of religion. So this is why Mao tried to destroy it. His 
successors know they can't destroy it, but they are going to 
try to manage and control, and I think Xi is simply the 
harshest of all the post-Mao presidents of China in doing this.
    Cochairman Smith. Thank you, Mr. Chairman.
    Let me, Ms. Tursun, if I could just ask you first. Again, 
in reading your testimony--it is very compelling. It shows 
tremendous courage. And again, all of us on this commission are 
deeply grateful that you have decided to come here and to bear 
witness so courageously.
    You did talk about 68 women in that small cell block, 430 
square feet. You mentioned that there were people there who had 
not taken a shower for a year, suggesting that they were in 
that terrible cell block for a year or more.
    You also spoke about the torture. And you did mention that 
nine women had died while you were there during those three 
months. And I am wondering if you could explain to us how those 
women died. Was it sickness? Was it depression? Was it 
beatings? And the torture, what was it that they were 
interrogating you about when they tortured you?
    And again, to underscore the barbarity of the Chinese 
dictatorship--in this case how they have grossly mistreated 
Uyghur Muslims--could you to some extent explain that torture? 
You talked about the tiger chair. In this Commission we've had 
hearings in the past where that hideous chair has been 
described in terrible detail. Were other women subjected to 
that same mistreatment? If you could . . .?
    Ms. Tursun. Thank you.
    First of all, I would like to tell you about 62-year-old 
Gulnisa. When I was detained in that cell, she had been held in 
that room for one year. That woman had high blood pressure as 
well as problems with her digestive system. She used to take 
blood pressure medicine when she wasn't detained, before. But 
since she was detained, she didn't take her medicine. Her whole 
body was swollen, and also she had some kind of red spots on 
her body. Many of us did not come close to her because we 
thought that we might catch her sickness. She wasn't able to 
stand sometimes but still was able to manage by sitting.
    During the three months that I stayed with her in that 
cell, she wasn't treated at all. Nobody took her to see a 
doctor or for treatment. And we raised the issue and we 
demanded that if it's possible for her to see a doctor, but 
they did not listen to us.
    One day before she passed away, the cell officials really 
kind of abused her, used very bad language to abuse her, and 
she was crying from that abuse. And she cried and that's how 
she passed away next day.
    And some of the women, they have died because of torture. 
For example, in 2017 they shaved my hair. And also they shaved 
my hair as well as electrocuted me. And they beat me. That's 
why I do not really hear properly from my right ear. I can't 
hear.
    And also sometimes the cell officers beat women. 
Especially, they beat on the stomach of the women and some 
women would die because of the bleeding. And I even heard that 
they use dogs to beat, and use dogs to torture as well. I heard 
it, but I did not witness that.
    Cochairman Smith. While you are speaking, are the torturers 
men, or women, or both? And is there sexual abuse?
    Ms. Tursun. All is men. All is men--the men torture women. 
Not women. Man tortures woman. I didn't witness sexual abuse, 
but I witnessed torture. But another abusive thing is they 
asked us to strip, take off all our clothes. They pass naked. 
The men do that. And also they beat you. When you are 
unconscious, they pour water over you and then make you come 
back again. And then they beat. All done by men. And they give 
a kind of medicine, and when you take that medicine, you feel 
like you are hallucinating. You don't feel yourself. And after 
that, after you take that medicine and they beat you, you don't 
feel that--you don't feel hurt or you don't feel anything.
    Cochairman Smith. Do they insult the prophet Muhammad and 
your faith?
    Ms. Tursun. Yes, because last time they beat me so hard, 
and then I tell him, please kill me and then God will help you. 
Please kill me. So he said, Where is your God? Tell him come 
here. Listen to me. They speak like this.
    Cochairman Smith. Right.
    I have some additional questions for you and for the other 
witnesses, but Senator Daines does have an appointment that he 
has to be at. So I would like to yield such time as he may----
    Senator Daines. Thank you, Chairman Smith, as well as 
Chairman Rubio. Thanks for holding this hearing.
    I want to thank the witnesses for coming today. I want to 
thank Ms. Tursun for her bravery, her courage for being here 
today, especially.
    I spent more than half a decade in China working in the 
private sector back in the 1990s. In fact, our two youngest 
children were born in Hong Kong. I've led Congressional 
Delegation visits to China the last three years. I have 
traveled to places beyond the regular places you go. Of course, 
we visit Beijing and places like Shanghai, Shenzhen, Hangzhou. 
But also we have gone to some of the places somewhat farther 
away, to Urumqi where we saw the prominent Uyghur Muslim 
population, to Tibet where we saw their Buddhist population and 
the monks, to Dandong on the North Korean border.
    So we've seen the Muslim people there in China. We've seen 
the Buddhist monks in China. We've seen the Christians there in 
China. And it has allowed me to see firsthand some of the human 
rights abuses, the censorship and the challenges the Chinese 
people face, as well as the efforts that are being made to 
extend influence beyond the borders of China.
    As your testimonies--this Commission, the State Department, 
Human Rights Report and numerous others indicate, the state of 
religious freedom in much of China is in dire straits. It is 
critically important that we as a nation founded on freedom, 
the rule of law, the basic foundation rights of religious 
liberty, that we bring our influence to bear to advance human 
rights in China and around the world.
    Dr. Hoffman, I have a question for you. Are there 
particular tools or technologies that might be helpful for the 
U.S. Government or NGOs to support, to assist the persecuted 
populations in places like Xinjiang Province or elsewhere in 
China?
    Ms. Hoffman. On the technologies question, I haven't even 
thought about it from that perspective. So I'll have to maybe 
add that to my written testimony later and think about the 
answer to that.
    But I think the number one thing is to really think about 
the problem at its source. Religious persecution is a symptom. 
It's not the cause. The cause is the Chinese Communist Party. 
And I'm not quite sure that--and I said this in my testimony 
and I'll just repeat it--I am not quite sure that we're 
thinking long-term enough. And what happens the day that maybe 
the Chinese Communist Party isn't in power. We aren't prepared 
for that day.
    And I think in order to help the Chinese people we need to 
think about those kinds of questions. But it's a hard question 
to answer, so I'm not sure that I can give you a good answer 
today. But I think that there needs to be some kind of 
taskforce to think about these questions.
    And in terms of protection of certain groups, I'd like to 
point out--one thing I have come across in my research is 
something like the social credit system, for instance, how that 
extends overseas. That's not new. You have heard it in the 
testimonies today, but it is also something that the CCP has 
done for decades--that they extend their control beyond China's 
borders going back to--I know particular stories going back to 
the 1950s and 1960s.
    I've heard stories from people which I will not repeat 
today because they are confidential, but stories where people 
are harassed. They've got citizenship in a democratic country, 
but they still have family back in China or they have family in 
a democratic country without citizenship and those members are 
harassed. And there are things that we can be doing to protect 
them.
    There are Chinese Embassy officials going into businesses 
and telling people to install surveillance technology and then 
give them that information, to feed that back to them, the 
embassy. And it's not that the U.S. Government can help 
everybody; we need to know that the problems exist in the first 
place, but we need to create the conditions to allow people to 
report and feel comfortable reporting these problems.
    And going back to, I think I started to mention the social 
credit system, one thing I have come across is that the 
Ministry of Public Security is developing unified social credit 
codes for overseas Chinese as well. And that means the existing 
methods for control, what's been described--the harassment of 
overseas Chinese, the existing methods of control--will just be 
augmented for a system like this.
    So we need to be thinking about how to, for instance, 
sanction tech companies that are involved in the development of 
the surveillance state, including things like smart cities, 
because a smart city in China isn't what a smart city is in the 
West. The same technologies that are used to, say, address 
problems like traffic management or food and health safety are 
the same technologies that are used to exert the Party's 
control. And so I think part of the problem is that dual use 
has a new meaning and we really need to think about those 
problems, and in the longer term, solutions.
    Senator Daines. So Dr. Hoffman, we think about the 
influences extended beyond the borders to Chinese who are here 
in the United States, Uyghurs here in the U.S. What are you 
seeing in terms of that long reach, whether through technology 
or other means here, to gather intelligence, surveillance 
capabilities, on those who might be living abroad?
    Ms. Hoffman. Again, that's not a new technique. I know of a 
story of somebody in India in the 1960s who was harassed and 
beaten up so severely that they were permanently crippled, and 
I think partly blinded for the rest of their life, because they 
were running a Chinese language newspaper that the CCP had 
problems with. And I know of cases, like I mentioned, of 
students overseas who have written on their WeChat, ``Xi 
Jinping is not my president'' and have had embassy visits 
either to them, or local officials to their families back home.
    But it's not just those things. You know, that's a 
relatively small number of cases. Sometimes it's just something 
as simple as overseas student groups knowing that the CCP is 
present.
    A lot of my research focuses on this concept called social 
management. And social management is a combination of a 
cooperative and coercive control which means that it's not just 
the CCP using coercive tactics. It's also the CCP providing 
services. So something like a Chinese Student and Scholar 
Association is mostly a service for students. But it's also the 
CCP just quietly sitting there and saying, Hi, we are present, 
and every once in a while, they make that presence more known. 
But for the most part, it is just the CCP kind of expending or 
just allowing overseas Chinese to know that the same rules 
apply to them abroad as they do at home.
    Senator Daines. Thank you, Dr. Hoffman.
    I wanted to finish up my questions with Ms. Tursun. Could 
you provide any insight into how the Han residents of Xinjiang 
regard the treatment of the Uyghur population?
    Ms. Tursun. They do not respect us like they even respect 
an animal. We don't receive any respect from them. They can 
speak bad to us. We cannot. They can beat us. We cannot. The 
treatment is very different because like, for example, I can 
say that if we are lining up for getting something, if 10 
Uyghurs are standing in line in front, if one Chinese comes, 
the service person will serve the one Chinese who came last 
first. The 10 Uyghurs will be left out.
    For example from my house, I go out from my house. I go to 
the supermarket normal to me--about two or three miles away. In 
those three miles, the Chinese police must check me three or 
four times.
    Senator Daines. So if it were a non-Uyghur--right, if it is 
a Han Chinese----
    The Translator. For Han Chinese, they don't do that. They 
are not required to go through the checks. They are free.
    Ms. Tursun. We always go through the scan, the scanning 
system. Always, that's the requirement for the Uyghurs, but not 
for the Chinese.
    Senator Daines. Because of your faith and ethnicity?
    Ms. Tursun. It's not only Uyghurs. Because my Chinese ID 
says Xinjiang/Turkestan. Because I am from East Turkestan. We 
have Uyghurs, Kazakhs, we have many groups--but for Chinese, 
no. No need to check. Just because we are Uyghur, that's why we 
face this discrimination. For Chinese, there is no such thing. 
Just because we are Uyghur and from East Turkestan. That's why.
    Senator Daines. Thank you.
    Ms. Tursun. Thank you so much.
    Senator Daines. Thank you, Mr. Chairman.
    Cochairman Smith. Thank you, Senator.
    I'll start with Dr. Farr on this question. As you know, a 
little over two years ago the Frank Wolf International 
Religious Freedom Act was signed into law and it provided a 
whole-of-government approach; it built on some of the early 
gains that were made by the original law authored by Frank 
Wolf. But some of the things we were not able to get into that 
law and--lessons learned over the years--and you as head of 
that office did a remarkable job--and I want that clearly 
stated on the record--for the IRFA office, International 
Religious Freedom office.
    But I'm wondering two years later--Ambassador Sam Brownback 
is obviously walking point as Ambassador for Religious Freedom. 
Secretary Pompeo is, I think, all-in when it comes to religious 
freedom--Vice President Pence and of course the President--but 
it always seems that China does not get the kind of focused 
scrutiny and call-out that it ought to. And certainly it does 
not get the linkage to policies. Even the IRFA sanctions--
because they are a CPC country since the law was enacted--
they're double-headed with the Tiananmen Square sanctions.
    And it seems to me there needs to be a significant breakout 
of penalty imposed upon--not just Magnitsky Act penalties, but 
other penalties. I think, Dr. Hoffman, you alluded to, more 
needs to be done on the Chinese Government. And I would say 
this for the record, and I've done it in this Commission 
before--I believe on human rights we were sold out by President 
Clinton.
    It's not a partisan dig, but he de-linked most-favored-
nation status from human rights, of which human religious 
freedom was an integral part. He did it on May 26th of 1994. I 
remember it. It was a Friday afternoon. Most Members of 
Congress had left. A couple of people did instantaneous press 
conferences, including Nancy Pelosi and me, harshly criticizing 
that de-linkage--and the Chinese Government ever since has felt 
that human rights in general, religious freedom in particular, 
are ancillary issues and not at the core of our policy.
    So my first question would be, to you, is there any 
evidence that the new law, and the new emphasis, the new focus, 
is having an impact? Second, if I could--and this would be to 
maybe Dr. Hoffman and maybe to you as well--obviously this 
brutal, genocidal crackdown on the Uyghurs should rise to the 
level of the United Nations as never before. Another genocide, 
another place people being targeted in whole or in part--this 
seems as if it is in whole--to try to change, to replace, even 
the celebrations that occur are stopped. The melodies that are 
sung are barred and of course, people like our distinguished 
witness suffer brutal, brutal torture as do other women and men 
and children.
    What have the Muslim-majority countries done, including the 
OIC and others, to say, Stop this, China? It seems as if 
Beijing gets away literally with murder and, in this case, 
genocide.
    What are the other Muslim countries doing? There is a very 
strong network. They are very effective and very domineering in 
many ways at the United Nations. Have they raised their voices 
in unison, or as individuals? Are there countries that rise to 
the fore, Muslim-dominant countries that have spoken to the 
Chinese abuse of the Uyghurs?
    You, in your comments, make a very good, Ms. Tursun, a 
very, very strong statement that you hope the United States 
will lead the world community to end China's gross violations 
of universally recognized human rights, pressure China to close 
these concentration camps, and release millions of innocent 
Uyghurs and other minorities. You point out--I still remember 
the words of the Chinese authorities when you asked what your 
crime was. They said that you being a Uyghur is a crime. You 
say please take action against the Chinese officials 
responsible for my torture and the death of my little boy and 
the deaths of so many innocent Uyghurs in the camps. And you go 
on.
    Obviously, this weekend our President, President Trump, 
will be meeting with Xi Jinping face-to-face. If he were 
sitting right here, what would you say to him, all of you, as 
to what he should do? I get concerned with all presidents, that 
they raise it, but not in the way that gets results. It has to 
be linked to policy. It has to be very public, I believe, 
because private diplomacy certainly has not had any impact 
here. So what would you say to President Trump if he were here?
    Dr. Farr, you spoke of the whole issue of the Vatican. And 
I couldn't agree with you more that I think it was a colossal--
I believe it's a colossal blunder. And I think Cardinal Zen in 
his op-ed in the New York Times--``The Pope Does Not Understand 
China,''--that was a very incisive commentary about the 
malevolence of China.
    You know it was Solzhenitsyn in his book ``The Gulag 
Archipelago''--and I remember reading it back in the early 
1980s, 1981, when the Soviet Union was very much in focus for 
its persecution of faith. And he said what people in the West 
don't understand is that it's not a disbelief in God. It is a 
hatred of God. It is militant atheism. And as you all have 
pointed out, it's also a threat to their power structure. So if 
you could speak to Cardinal Zen. I think he is a courageous 
man. He understands exactly as did Pope John Paul II what 
Communism is all about. It is not to be flattered or enabled 
and I do think--and I personally have met with the head of the 
Three-Self Movement and remember having a very discouraging 
conversation with her, the Protestant Communist front group, 
when she was telling me how important it was to implement the 
one-child-per-couple policy with its heavy reliance on forced 
abortion, which is a crime against humanity and a crime of 
gender against women.
    And I remember meeting with Joseph Kung, Cardinal Kung's 
nephew in Beijing, along with Bishop Fu, who is the head of the 
Patriotic Association. And Joseph Kung took him to the 
cleaners--to use an American expression--in his lack of 
understanding of Catholic dogma of the Bible. And it was like, 
Here's the man that is running the Church for the Communist 
Party, and now unfortunately there is a de facto, de jure 
collaboration with the Vatican for people just like him who are 
enabling repression and religious persecution.
    So on those few questions, if you could? Whoever would like 
to start first. Dr. Hoffman?
    Ms. Hoffman. On the question about what countries or 
other----
    Cochairman Smith. The Muslim countries, especially.
    Ms. Hoffman. The Muslim in particular--I think the best 
answer I can give to your question based on my research is that 
what we are seeing play out right now shouldn't be entirely 
surprising. The Chinese Communist Party's perception of 
threat--if you really read Party documents, it's written in the 
People's Daily, for instance going back--my research covers all 
the way to the 1940s, but even if you just go back to 1989 and 
Tiananmen, one of the big things that the Party is saying after 
that, for instance, is that, It's a good thing that the PLA 
stepped up this time and supported the Party, but what about 
next time?
    If you read, for instance, the PLA Daily in the years 
following the protests, one of the biggest threat perceptions 
the Party perceives is that actually the Party can't manage 
itself. And that carries over into 1999 with the Falun Gong 
Movement because again, many senior members of the Party are 
involved in that, senior members of the PLA, of the PAP, and 
reportedly the Ministry of State Security as well, using 
resources from the nascent surveillance state to coordinate and 
organize the sit-in protest.
    They're the same people who are supposed to defend the 
Party, and their job is to defend the Party, not the state, in 
a time of crisis. And then you have the CCP talking about 
threat perceptions in relation to the Color Revolutions in the 
early 2000s. And you can see that this threat perception was 
something that the CCP was willing to act on at any cost to 
preserve its power. And preserving its power doesn't mean that 
it's just protecting its power, it means that it's expanding 
its power. And that expands into places like trying to change 
the way that we talk about concepts like sovereignty or human 
rights.
    I was in China in August and in one of my meetings I said 
to somebody--I was with an American delegation--and the word 
sovereignty kept coming up, and I said to the person across the 
table from me, I'm pretty sure that we have different 
definitions of sovereignty. It's a difficult term to define 
anyway. But how would you define sovereignty? And he explained 
to me that sovereignty starts with political security and 
political security is the Party security and that if a person 
or a company says something like, Taiwan is not a part of 
China, for instance--this is the example that this person 
used--then they're violating our sovereignty.
    And so over time, the CCP tries to address its threat 
perceptions not only by what it's doing in Xinjiang but also 
changing the way that we're willing to talk about China in 
order to support the Party's project to stay in power. And so 
it's been acting on these long-term threat perceptions forever. 
And for a long time, these are dismissed. The threat 
perceptions are seen as somewhat--the Party is paranoid. And 
they are, but that matters.
    And so I think it's not a direct answer to your question, 
but it's the best answer I can give--that the writing's been on 
the wall for a very long time. We're just now seeing the worst 
consequences of the Party being exactly what it is.
    Cochairman Smith. That was a great insight.
    If you could, any countries that come to mind, Saudi 
Arabia, Iran, that might be speaking out against what's 
happening to co-religionists, other Muslims?
    Ms. Hoffman. To be honest----
    Cochairman Smith. Malaysia, the largest----
    Ms. Hoffman. This isn't something that I've paid particular 
attention to, so I don't want to give a bad answer to your 
question on the record.
    Cochairman Smith. Dr. Farr?
    Mr. Farr. You asked a bunch of good questions, Mr. Smith. 
I'm going to pick two, if I could.
    One is, what would I have the President say to Mr. Xi 
Jinping. I would have the President say to him, Stop 
persecuting your own people. It's bad for China's international 
reputation, and it's bad for China's economy. I think this is 
something this President, a point he could make that would be 
very, very powerful coming from him. And it also happens to be 
true. This is something that I wish our own religious freedom 
diplomacy would be involved in, and that is making the argument 
that religious freedom is good for the economy--or the reverse; 
i.e., that the absence of religious freedom harms the economy. 
For a Communist system you don't have to have full religious 
freedom. Just back off. Stop your crackdowns.
    This is not rocket science--although people don't seem to 
get it. Where you are brutalizing people, the economy is not 
going to grow. And whether it's in Xinjiang Province, or Tibet, 
or throughout China, if you can learn to allow people to be 
religious--Chinese citizens, these are not foreigners--they 
will be more economically productive.
    There's plenty of evidence. We can present the evidence, 
but I think it's also common sense. And coming from President 
Trump, I think this would be very, very powerful.
    And by the way, let's incorporate this into our 
International Religious Freedom policy with China. This is 
something I believe Ambassador Brownback believes and 
understands. Let's see it in China.
    The second question I would like to answer is--you didn't 
quite ask it this way, but I would say to the Vatican, If 
you're going to keep this agreement, this provisional 
agreement, demand more from the Chinese. For example, propose a 
way for underground bishops to be involved in the nomination 
process that goes to Rome. Rome should demand this.
    Second, provide a written guarantee in this agreement that 
you will criminalize any Chinese official, you will prosecute 
any Chinese official or Chinese citizen who effaces or destroys 
Catholic or other religious monuments, Marian shrines, or any 
other kind of shrine, church, synagogue, or temple--and here I 
would get into the problem of the Uyghur Muslims and the 
Tibetan Buddhists. Demand this for them as well. This is a very 
Catholic thing to do.
    The Catholic Church stands for the religious freedom of all 
Chinese religious groups and citizens. Incorporate this into 
this provisional agreement. Now, the Holy Father has spoken out 
on the persecution of non-Christians and non-Catholics. Why not 
put this into this agreement? Demand something other than this 
Esau's bargain that they seem to have gotten for a procedure 
which leads nowhere but the Pope vetoing bishop candidates put 
forward by Beijing. If he vetoes candidates, then the 
bishoprics simply stay vacant. The Chinese Communists don't 
care, but the Chinese Catholics do. A major risk is that one of 
the Communist apparatchiks nominated as bishop ultimately is 
accepted by the Vatican. I think the Vatican can do much better 
and they have the moral authority to do that.
    Cochairman Smith. What would you say to President Trump if 
he were here?
    Ms. Tursun. If President Trump were here right now with us, 
first, I would say, Please help us to close down all the 
concentration, reeducation camps and release all innocent 
Uyghurs.
    And also, if America as well as other Western countries 
could help the Uyghurs like myself who need help, who luckily 
came out from the country but are unable to go back. And there 
are many helpless Uyghurs like me who need the help of the 
United States and other countries.
    And then number three, I hope to tell him, please, please, 
America, if you can, help us. Turkestan is independent. Get 
China out from our country. Help my father and mother. Thank 
you.
    Cochairman Smith. Thank you. Dr. Hoffman, maybe you could 
answer. Has the United Nations, particularly the Human Rights 
Council, been effective in raising the issue of the Muslim 
Uyghurs in China?
    Ms. Hoffman. Although the issue's come up, I don't think it 
is effective enough. I don't think----
    Cochairman Smith. It certainly has not been a focus.
    Ms. Hoffman. No, I think the problem is that it seems 
that--well, you said it yourself. I think it seems that China 
gets a free pass so often. And I think that this issue 
should've never escalated to this point because, as I said 
before, this is something that we've seen happening.
    I was looking back when I was preparing for this testimony, 
reading some documents from this Committee back in 2005, where 
you could see the direction that things were headed in 
Xinjiang. So I don't think--no, I don't think that the UN, or 
the United States, or any government has done enough. But 
hearings like this help. And one thing I would add is that if 
the camps were closed tomorrow, that would obviously be a 
positive step, but that's not solving the problem because the 
problem is the Chinese Communist Party.
    Cochairman Smith. Okay.
    Yes, Dr. Farr.
    Mr. Farr. I was just going to say that the Special Rep, UN 
Special Rapporteur on Religious Freedom, Ahmed Shaheed, is 
really quite good. And I have not looked. I should have. I 
would hope that he is speaking out against this and has 
attempted to visit China to do a report on what is happening to 
the Uyghurs in Xinjiang Province. If he hasn't, then perhaps 
the Commission might write him a letter and suggest he do it.
    Cochairman Smith. Thank you.
    I would just, unless you have anything else you'd like to 
add, would conclude with just a couple of points.
    One--Rebiya Kadeer is here again with us today. And I 
remember when she gained her own freedom. She was warned, but 
she spoke out boldly and courageously on behalf of Uyghur 
Muslims and all people who are captive and harshly treated. I 
have always had a great admiration for her. And in keeping with 
this horrific crackdown by Xi Jinping, 40 members of her family 
now are either disappeared or incarcerated by China. There are 
six journalists with Radio Free Asia, Uyghur Division. They too 
have had their families rounded up and incarcerated or 
disappeared. All the more reason why this Government, and our 
President, and this Commission, and every one of us needs to 
quadruple our efforts to stop this horrific crackdown that has 
been initiated by Xi Jinping, in this case under the false 
guise of terrorism and other pretexts.
    I remember when 9/11 occurred. Obviously, there were many 
people of my own district who were killed in the Twin Towers 
and I worked on that issue with a lot of issues that followed 
with the families, including the Jersey Girls, four women who 
lost their husbands. They call themselves that. They were 
probably the main reason why we got the 9/11 Commission, but 
that said, as that was happening, the Chinese Government--and I 
immediately spoke to the Bush administration and people in it 
and said--the Chinese Government is using 9/11 as a way of 
focusing on the Uyghurs.
    Right away they were in solidarity with us, which was a 
false solidarity about their concern, but they were using it as 
a pretext to crack down on Muslims. So it's here we go again, 
and now it's on steroids under the dictatorship of Xi Jinping.
    But to Rebiya Kadeer, and all of those who are suffering so 
horribly, I just want to say how our hearts and our prayers are 
with you. But we have to add to that our effective actions and 
hopefully, under Senator Marco Rubio, who has been a great 
chairman of this Commission for the last two years--it has been 
my honor to serve as his cochairman.
    Paul Protic, who has been our deputy chief of staff and 
when I was chair, chief of staff, I want to thank him for his 
tremendous leadership as well.
    This Commission is needed now more than ever, as is the 
Government's response. And so my hope is that this will be a 
further catalyst to effective action.
    Again, I want to thank our distinguished witnesses. You 
have been remarkable, and you provide us with a great road map 
for the future.
    The record will remain open for 48 hours to receive any 
additional information, comments by members, and any additional 
material our distinguished witnesses would like to add.
    The hearing is adjourned.
    [Whereupon, at 4:56 p.m. the hearing was concluded.]
      
=======================================================================


                            A P P E N D I X

=======================================================================

                          Prepared Statements

                              ----------                              


                 Prepared Statement of Mihrigul Tursun

    Chairman Rubio, Cochairman Smith, and members of the Commission, I 
would like to thank the United States Government and the American 
people for saving my life and bringing me to the United States of 
America, the land of the free.
    Over the last three years, I was taken to Chinese government 
detention centers three times. I spent 10 months in the camps in total, 
and experienced physical and psychological torture at the hands of 
government officials.
    Thank you for giving me the opportunity to testify about my 
personal experience in China's so-called ``vocational schools'' or 
``re-education centers.''
    My name is Mihrigul Tursun and I am 29 years old. I am of Uyghur 
ethnicity and I was born in Cherchen County in the southern region of 
East Turkestan, the Uyghur people's homeland, officially called the 
Xinjiang Uyghur Autonomous Region. When I was 12 years old, I was taken 
to Guangzhou for middle school, under the Chinese government's program 
to move Uyghur children to inner China at a young age. This ``Xinjiang 
Classrooms'' policy takes thousands of Uyghur children away from their 
families and immerses them in Han Chinese institutions, far from their 
native language and cultural environment. In effect, it forces Uyghurs 
to deny our cultural identity and religious beliefs, and to embrace the 
Chinese way of life.
    However, my experience in this state program actually made me more 
conscious of my ethnic identity. The constant discrimination and 
humiliation I experienced as a young Uyghur at a Chinese school in a 
Chinese city made me realize that I was different from the majority Han 
population.
    I went on to study Economics at Guangzhou University and then 
worked for a private company that does business with Arab countries. I 
always dreamed of studying English abroad and I finally had the 
opportunity to study at the British University in Egypt. On December 
10, 2010, I left my homeland to study in Egypt, where I met my husband. 
In March 2015, I gave birth to healthy triplets, two boys and a girl, 
who are Egyptian citizens. I had difficulty taking care of my three 
babies and on May 4, 2015, I took my mom up on her offer to help take 
care of my children and left for China with my three two-month-old 
triplets. My troubles began the moment I set foot in China.
    As soon as I came to the border control counter at the airport in 
Urumchi, I was taken to a separate room for hours of interrogation. My 
babies were taken away from me right at the airport. The authorities 
repeatedly asked me whom I met and talked to in Egypt. Then they 
handcuffed me, put a dark sack over my head, and took me to a detention 
center. I was not able to see or breastfeed my triplets.
    After three months, the Chinese authorities told me that I had been 
``paroled'' because my children were sick. They told me I could be with 
them until their health improved, but they warned me that I was still 
under investigation. They held onto my passport, identification cards, 
and cellphone.
    I went directly to the hospital to see my children. My oldest son 
was in an emergency care facility and I could only see him through a 
glass window from far away, so I could not touch him to see if he was 
breathing. The next day, they gave me his dead body, saying he had been 
unable to breathe and they could not save him.
    While burying my four-month-old baby, I was tormented and filled 
with the guilt of not being able to save my son. All three babies had 
been operated on, on their neck area, when I was in prison. I was told 
they were fed through a tube on their necks since they could not eat. I 
did not understand why, because they were breastfeeding without any 
issues before we left Egypt.
    My other two children had developed health complications and I 
spent the next few months seeking medical treatment for them, including 
an eye surgery for my daughter. They have been suffering from health 
issues ever since.
    I was unable to return to Egypt because all of my documents were 
confiscated by the authorities and I had been blacklisted. There was a 
black dot in my identity card, which beeped wherever I went--a 
hospital, pharmacy, and even a bus, so police would check my card and 
had to approve every step I took.
    In April 2017, I was living at home in Cherchen County when the 
police took me to a detention center for the second time and 
interrogated me for about four days and nights without sleep. I was 
incarcerated for about three months and then released to a mental 
hospital because I kept having seizures and losing consciousness. My 
father was later able to take me home to treat me at home and I 
gradually recovered.
    In January 2018, I was detained for the third time for no reason. 
The authorities handcuffed me on my wrists and ankles, put a black sack 
over my head, and took me to a hospital. I was stripped naked and put 
under a big computerized machine. One female and two male officials 
examined my body while I was still naked and then dressed me in a 
prison uniform which was blue with a yellow vest. It had the number 54 
on it. A Chinese official reminded me that this outfit is usually worn 
by serious criminals who face capital punishment or lifetime in prison 
and that ``54'' in Chinese also meant ``I am dead.''
    Now, I would like to tell you about what I experienced in these 
camps during my incarceration. I was taken to a cell, which was built 
underground with no windows. There was an iron gate and the door opened 
through a computerized lock system. There was a small hole in the 
ceiling for ventilation and we were never taken outside for fresh air. 
There was a toilet bowl in the corner out in the open without toilet 
paper. There were cameras on all four sides so the officials could see 
every corner of the room, including the toilet area, and they could 
hear every noise we made. There was one light that was always on.
    When I first entered the cell, which was cell number 210, there 
were 40 other women between the ages of 17 and 62. The cell was getting 
more and more crowded every day. When I left the cell after about three 
months, there were 68 women.
    I knew most of the women in my cell. They were my neighbors, young 
daughters of my former teachers, and doctors, including a doctor who 
had been educated in the UK and treated me in the past. They were 
mostly well-educated professionals such as teachers and doctors.
    There were around 60 people kept in a 430-square-foot cell, so at 
night, 10 to 15 women would stand up while the rest of us would sleep 
sideways so we could fit, and then we would rotate every 2 hours. There 
were people who had not taken a shower in over a year.
    As I was crammed with other women on the floor with chains on my 
wrists and ankles also connected with a longer chain, I remember 
thinking about what I did wrong. Why am I here without any charge or 
explanation? What was my crime and why do I deserve such inhumane 
treatment? Why can't I use the bathroom in private and have toilet 
paper? Why can't I have water to take a shower or simply wash my face? 
Why don't I get enough bread to eat or water to drink?
    We were woken up around 5 a.m. each morning with loud alarms. We 
had to fold the six blankets we shared in the same way. If the blankets 
were not folded neatly and did not look symmetrical, the whole cell 
would be punished. They would take away the blankets so we would have 
to sleep on the cement floor.
    Before we ate breakfast, which was water with very little rice, we 
had to sing songs hailing the Communist Chinese Party and repeat these 
lines in Chinese: ``Long live Xi Jinping'' and ``Leniency for those who 
repent and punishment for those who resist.''
    We had 7 days to memorize the rules of the concentration camp and 
14 days to memorize all the lines in a book that hails the Communist 
ideology. Those women whose voices were weak or couldn't sing the songs 
in Chinese, or remember the specific rules of the camp, were denied 
food or beaten up. In theory, there were supposed to be three meals but 
sometimes there was no food all day and when there was food, it was 
mostly a steamed bun. I must note that the steamed buns we were eating 
got smaller and smaller even as the number of people in the camp kept 
increasing in number. We were never given any fruit or vegetables.
    They forced us to take some unknown pills and drink some kind of 
white liquid. The pill caused us to lose consciousness and reduced our 
cognition level. The white liquid caused loss of menstruation in some 
women and extreme bleeding in others and even death. I was also forced 
to take some unknown drugs. They checked my mouth with their fingers to 
make sure I swallowed them. I felt lethargic and less conscious, and 
lost appetite after taking these drugs.
    During many days and nights of interrogation, they asked the same 
questions: ``Who do you know overseas? Who are you close to? Which 
organization do you work for?'' I think because I lived overseas and 
speak a few foreign languages, they tried to label me as a spy.
    I clearly remember the torture I experienced in the tiger chair the 
second time I was incarcerated. I was taken to a special room with an 
electrical chair. It was the interrogation room that had one light and 
one chair. There were belts and whips hanging on the wall. I was placed 
in a high chair that clicked to lock my arms and legs in place and 
tightened when they pressed a button. My head was shaved beforehand for 
the maximum impact. The authorities put a helmet-like thing on my head. 
Each time I was electrocuted, my whole body would shake violently and I 
could feel the pain in my veins.
    I thought I would rather die than go through this torture and 
begged them to kill me. They insulted me with humiliating words and 
pressured me to admit my guilt. In fact, I had not been involved in any 
political activity when I was abroad. Then they attacked me 
psychologically and said, ``Your mom died the other day and your dad 
will serve a lifetime in prison. Your son was in the hospital and he 
also died. Your daughter's eyes will remain crossed permanently, and 
she will be thrown into the streets because you cannot take care of 
her. Your family is torn apart because of you.''
    This was very hard for a daughter and a mom to take. I felt a huge 
sense of guilt and worthlessness. I cried and begged them to kill me. I 
don't remember the rest. White foam came out of my mouth, I began 
losing consciousness, and I fainted.
    The most horrific days for me were when I witnessed the suffering 
and death of my cellmates. The nights were the busiest time in the 
camps; a lot of activity such as transferring people between cells or 
removing the dead bodies would happen at night. In the silence of the 
night, we would hear men from other cells groaning in agony. We could 
hear the beatings, the men screaming, and people being dragged in the 
hallways because the chains on their wrists and ankles would make 
terrible noise when they touched the floor. The thought that these men 
could be our fathers or brothers was unbearable.
    Unfortunately, I witnessed nine deaths in my cell of 68 people in 
three months alone. If my small cell, cell number 210, in a small 
county, experienced 9 deaths in 3 months, I cannot imagine how many 
deaths there must be all over my country.
    One victim was a 62-year-old woman named Gulnisa. Her hands would 
tremble, she had red rashes all over her body, and she could not eat 
anything. She was really sick, but the doctors in the camp determined 
that she was fine. The doctors at the camp were supposed to say the 
patients were fine because if they said the inmates were sick, they 
would be perceived as sympathetic or supportive of the patients. One 
night, Gulnisa was humiliated for not having memorized her lines in 
Chinese and she was crying when she went to sleep. She did not snore 
that night and her body was very cold when we tried to wake her up. She 
had died in her sleep.
    There was another 23-year-old woman named Patemhan. Her mom had 
died and her husband, father, and brother were all taken to the camps. 
Her crime was attending a wedding in 2014 that was held according to 
Islamic traditions, where people did not dance, sing, or drink alcohol 
at the wedding. She said all of the 400 people who attended that 
wedding were arrested and taken to the camps. When she was taken to the 
camp, she had left her two kids in the field. She had been in the camp 
for one year and three months and she agonized every day over the 
whereabouts of her kids. She had heavy menstrual bleeding for over a 
month and was denied any medical treatment. One night while she was 
standing with other women, she suddenly dropped to the floor and 
stopped breathing. Several people with masks came, dragged her by her 
feet, and took her away.
    I never thought I would come out of cell 210 alive. I still cannot 
believe it, but miracles do happen. Two hours before I was told I would 
be released, the Chinese authorities gave me an unknown injection. I 
thought the shot would slowly kill me and began to count the minutes 
waiting for my death. I was surprised to still be alive when the 
authorities gave me a statement to read and sign. I read it and swore 
to it, and they filmed me doing so. The statement said: ``I am a 
citizen of China and I love China. I will never do anything to harm 
China. China has raised me. The police never interrogated me or 
tortured me, or even detained me.'' The police warned me that I must 
return to China after taking my kids to Egypt and I must remember that 
my parents, siblings, and other relatives were at their mercy.
    On April 5, 2018, after more than three months, I came out of that 
cell and was able to finally see my kids. I did not find my parents at 
home, however, and was not allowed to ask about their whereabouts. I 
left my hometown three days later with my two children and stayed in 
Beijing for about 20 days because I was prevented from boarding the 
plane three times for allegedly missing documents. On my fourth 
attempt, I was able to board the plane and landed in Cairo on April 28.
    I was lost and in deep pain. I did not know what to do. My parents 
and siblings could be in those camps and the Chinese authorities could 
kill them if I did not return to China, but if I did return, I would go 
back to die in the camp and the true nature of those camps would go 
back to that dark cell with me. The Chinese government could still keep 
my parents and siblings in the camps or kill them.
    I gathered my courage and decided to tell the world about China's 
hidden concentration camps so those people who tortured me and others 
would be punished for what they did and the voice of those innocent 
people in the camps could be heard.
    Thanks to the help of many wonderful people, I was able to come to 
the United States. I cannot describe in words how I felt when I landed 
in Virginia on September 21, 2018. I was overwhelmed with the sheer joy 
of freedom and a deep sense of confusion that day. Did I already die in 
the camp and was now in heaven? Or was I really in this free and great 
country that I have always dreamed of coming to? It was too good to be 
true.
    I currently live in the United States with my two kids. Even though 
I am no longer in a concentration camp, I have not been completely free 
from the traumatic experience and the Chinese government's harassment. 
My life is still haunted by sudden episodes of fear and anxiety as a 
reminder of the horrific days I went through in the camps.
    My kids have physical and psychological health issues. They are 
scared when someone knocks on the door and afraid of being separated 
from me. I still have scars on my body from the constant beatings and 
pain in my wrists and ankles from the chains. I cannot hear in my right 
ear, caused by heavy beatings. I am scared of the dark but also scared 
of too much light or noise. Police sirens give me anxiety and increase 
my heartbeat. Sometimes I get shortness of breath, my whole body goes 
numb, and my heart hurts. I still have nightmares at night. Even though 
I was told I am safe here, I am still afraid at night that the Chinese 
police will knock on my door and take me away and kill me.
    I also fear that Chinese government officials are still monitoring 
me. Several weeks ago, a group of Chinese men were following me outside 
and continued to follow after I got into a car.
    The Chinese Government must have also forced my brother to reach 
out to me. He left a voicemail on the cellphone I brought from China. 
My brother said: ``How could you do this to your parents, to us? What 
kind of daughter are you? You should go to the Chinese Embassy right 
away and denounce all the things you said about the Chinese government 
in the interviews you gave to Radio Free Asia and tell them you love 
China. Tell them you were pressured by the Uyghur organizations in the 
U.S. to lie about your detention and torture in the camps, and take 
back everything you said. Otherwise China can get you wherever you 
hide.''
    I was terrified that the Chinese government could still threaten me 
from so far away. As I am trying to start a new life in America, go to 
school, work, and take care of my son and daughter, I am still scared 
that the Chinese government will try to hurt me.
    I will take this opportunity to kindly request that the U.S. 
Government take steps to provide assurance for my safety. Exposing the 
real nature of China's concentration camps puts my life and my kids' 
lives in danger even in the United States, so please do what is 
necessary to ensure that we remain safe in this country. Additionally, 
I was forced to swallow many unknown pills and given injections in the 
camp and I do not know what kind of drugs my kids were forced to take 
while I was in the camp. I would really appreciate the opportunity to 
go through a thorough medical examination and treatment.
    This is my story. But I am only one of the millions of Uyghurs and 
other ethnic groups targeted for punishment or death in concentration 
camps. I am blessed to have miraculously escaped the camps and I have 
the freedom to speak out on behalf of those being tortured in the 
concentration camps as we speak.
    The Chinese Government made it clear that the cost of my speaking 
out would be the lives of my parents and siblings. I feel unbelievably 
guilty for that, and it is a form of ongoing mental torture I suffer 
every day. But I believe I also have a moral obligation to tell the 
truth to the world so that someone can take action to stop this 
atrocity.
    My people look to the United States as the beacon of hope for the 
oppressed people around the world. While every other country in the 
world is turning a blind eye to this brutality to avoid falling from 
China's good graces, I want to tell the truth to the government of the 
United States, the most powerful country in the world and the only 
country that has the courage and the ability to tell China to stop its 
ethnic cleansing of Uyghur people.
    I hope that the United States will lead the world community and 
condemn China's gross violation of universally recognized human rights, 
and pressure China to close these concentration camps and release 
millions of innocent Uyghurs and other minorities. The Chinese 
government's systematic abuse of Uyghurs inside and outside the camps 
demonstrates that it thinks it is too powerful to be held accountable 
for its attempt to eliminate the Uyghurs as a people. I still remember 
the words of the Chinese authorities when I asked what my crime was. 
They said, ``you being an Uyghur is a crime.''
    Please take action against the Chinese officials responsible for my 
torture and the death of my little boy, and the deaths of so many 
innocent Uyghurs in the camps.
    Please help stateless Uyghur refugees around the world (who will 
certainly be taken to the camps if they return) seek refuge in this 
great country.
    And finally, if any Member of Congress goes to China, please ask 
where my mother, father, and siblings are.
                                 ______
                                 

                 Prepared Statement of Samantha Hoffman

    The United Front and the CCP's ``People's War'' Against Religion
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                ------                                


                 Prepared Statement of Thomas F. Farr *

            The Vatican Accord with China: Riding the Dragon

    Chairman Rubio, Cochairman Smith, and members of the Committee, 
thank you for holding this important hearing and inviting me to give my 
views on the Vatican's September Provisional Agreement with China and 
its effects on the ground.
                              introduction
    The Sino-Vatican Agreement was negotiated and is being implemented 
in the midst of the most systematic and brutal attempt to control 
Chinese religious communities since the Cultural Revolution. President 
Xi Jinping's policies should be seen as a particularly troubling aspect 
of the global crisis in religious freedom, one in which over three-
quarters of the world's people live in nations where religion is 
highly, or very highly, restricted.
    China is one of those nations. For years it has been on the State 
Department's list of the most severe violators of religious freedom. 
President Xi's policies are now putting it in contention for the worst 
of the worst, along with North Korea, Saudi Arabia, and Iran.
    Xi's actions are intensifying--making even more brutal--a decades-
long government strategy of undermining a major threat to the authority 
of the Communist state: religion is a source of authority, and an 
object of fidelity, that is greater than the state. This characteristic 
of religion has always been anathema to history's totalitarian despots, 
such as Stalin, Hitler, and Mao, and to brutal authoritarian states 
such as early 20th century Mexico or Saddam Hussein's Iraq.
    The problem for these regimes is that most religions, unless they 
are co-opted by the state, by their nature limit the power of the 
state. This of course is a major reason why the American Founders put 
religious freedom at the beginning of our Bill of Rights--to contribute 
to the checks and balances designed to limit the power of the national 
government.
    President Xi's strategy includes a renewed effort to alter by 
persecution the fundamental nature of certain religions. One is Islam 
as practiced by the Uighurs in Xinjiang Province, which the Chinese 
have recently targeted for genocide-like transformation or elimination. 
Another is Tibetan Buddhism, the object for decades of a brutal Chinese 
strategy of persecution and cultural destruction. A third is Roman 
Catholicism, whose distinctive teachings on human rights and religious 
freedom pose a particular obstacle to the Chinese state, especially to 
the impoverished Marxist-Leninist understanding of religion, human 
nature, and human dignity.
    Today I will focus on the Chinese Catholic minority, and in 
particular the September 2018 Sino-Vatican Provisional Agreement. I 
will explore the possible effects of the Agreement, including whether 
it is likely to achieve its stated ends; that is, to allow the Catholic 
faithful to have bishops who are in communion with Rome but at the same 
time recognized by Chinese authorities. This, it is hoped, will help 
unify the divided Catholic Church in China.
    I also want to examine whether a second, implicit goal of the 
Agreement is likely to be achieved, namely to improve the lot of 
China's persecuted Catholic minority, and to make Catholicism more 
attractive to the Chinese population.
 to set the stage: a brief historical overview of catholicism in china
    Let me begin with a brief historical overview of Catholicism in 
China. The earliest Christians appeared in China during the 7th 
century, but the church was not permanently established. A semi-
permanent Catholic presence began in the 13th century with the arrival 
of the first of several Franciscan priests, the building of the first 
Roman Catholic church, and the installation of the first Catholic 
bishop.
    After three centuries of Catholic growth and retrenchment in China, 
the Protestant Reformation in Europe led to the creation of the Society 
of Jesus--the Jesuits. This new Catholic order evangelized worldwide, 
and reached China by the late 16th century. In 1601 Matteo Ricci 
installed a Jesuit mission, which established Catholicism in China for 
good, notwithstanding periodic fierce resistance by Chinese emperors 
and Communist rulers.
----------
    * Thomas F. Farr is President of the Religious Freedom Institute. 
As an American diplomat, Farr was the Director of the State 
Department's Office of International Religious Freedom (1999-2003). He 
was an associate professor at Georgetown University's School of Foreign 
Service (2007-2018), and Director of the Religious Freedom Project at 
Georgetown's Berkley Center (2011-2018).
    In 1724 Christianity was banned by the Qing dynasty, but by the 
dawn of the 19th century an estimated 200,000 Chinese Catholics 
remained. With the entry of the Western powers into China, their 
numbers increased, as did the number of Protestant missionaries and 
conversions to Christianity. During the 19th and 20th centuries 
Christianity became associated with Western imperialism, a perception 
that endures to this day, and although the vast majority of Christian 
clergy and lay adherents are indigenous Chinese citizens, continues to 
fuel persecution.
    Throughout these centuries, Catholics in China encountered versions 
of what we are seeing today from the Chinese Communist government, that 
is, the assertion that Catholicism is incompatible with Chinese culture 
and must either be rooted out or adapted in ways that would change its 
fundamental nature.
    The triumph of Mao and the Communist Revolution in 1949 led to an 
attempt either to absorb all religion into Communist ideology or to 
destroy it. The new People's Republic expelled the papal representative 
and in 1951 broke relations with the Holy See. The next decade 
witnessed brutal treatment of Catholics, Protestants, and other 
religious groups.
    But by the 1960s, China's policy of taming religion was, like its 
economic policy, clearly failing. In 1966, Mao proclaimed that Chinese 
Communism had become too ``revisionist,'' and he initiated the Cultural 
Revolution. The new revolution would, in his words, ``sweep away all 
the monsters and demons'' that opposed his brand of Communism. For the 
next ten years the Red Guards mounted a sustained and brutal attack on 
anyone or any group seen as a threat, and that included the Chinese 
Catholic Church.
    While most of the official records of those devastating years were 
destroyed by Mao's successors, we know from survivors the terrible 
contours of what happened to Catholics and other religious groups. 
Churches were desecrated, looted and turned into factories and 
storerooms. Priests and nuns were tortured, murdered (some were burned 
alive), and imprisoned in ``re-education'' labor camps. Lay Christians 
were paraded in their towns and villages with cylindrical hats 
detailing their ``crimes.'' Millions of Chinese citizens died terrible 
deaths during the Cultural Revolution, including by starvation. Tens of 
millions were brutalized, their lives and families destroyed. The 
clergy and faithful of the Catholic Church were among them.
    In the end, the Cultural Revolution merely confirmed what Stalin 
and Hitler had already proven--religion cannot be destroyed, even by 
totalitarianism. The powerful need for religion is in the DNA of men, 
women, and children. Grudgingly acknowledging this reality, Mao's 
successors condemned the excesses of the Cultural Revolution and 
adopted a new strategy on religion--one that continues to this day.
    The religion policies of Chinese leaders from Deng Xiaoping, who 
succeeded Mao in the 1970s, to President Xi Jinping today have been 
variations on a theme: religion is by its nature a threat to the 
Communist Party and the rule of the Politburo. While Mao proved that a 
policy of eliminating religion is unrealistic, his successors have 
constantly experimented in finding the ``correct'' way to control, co-
opt, and absorb religion into the Communist state.
          the context of contemporary chinese religion policy
    Ten years ago I wrote a book on U.S. international religious 
freedom policy that contained a chapter on China.\1\ Re-reading that 
chapter confirmed for me that not much has changed in the pattern 
adopted by the Chinese to control religion. If you were to graph 
China's religion policies since the 1970s, you would see ups and downs 
as new Chinese leaders adjusted policies to achieve the prime objective 
of control.
---------------------------------------------------------------------------
     \1\ Farr, ``World of Faith and Freedom,'' pp 273-307.
---------------------------------------------------------------------------
    Not all Chinese policy, it is true, involves overt repression of 
all religions. Since the Cultural Revolution China's leaders have 
periodically supported religious groups perceived to be capable of 
consolidating Beijing's power. Former Chinese leaders Jiang Zemin and 
Hu Jintao, for example, praised Chinese (non-Tibetan) Buddhism, 
Confucianism, and Daoism as ``traditional cultures'' of China. Xi 
Jinping has exhorted adherents of those religions to help reverse 
China's moral decline.
    Clearly those three groups pose a lesser threat to Communist rule 
than do the Uighur Muslims, Tibetan Buddhists, and Christians. For the 
moment at least, it is the latter three religious communities that are 
the objects of continuing repression, especially the Uighurs. The 
Muslims of Xinjiang province are being subjected to a massive anti-
Uighur and anti-Muslim campaign that is staggering in its sweep and 
totalitarian sophistication, in effect a 21st century version of the 
Cultural Revolution. Its goal is to destroy a minority religion 
associated with a particular ethnic group. But this time the policy is 
not being carried out by the open savagery of Red Guards. Rather, the 
agent is Stalinist-era informers, periodic crackdowns to warn the 
population, and ``re-education'' of Muslims to change their beliefs. In 
recent years hundreds of ``re-education'' camps have been established, 
run by Chinese officials trained in ``transformation'' of inmates from 
adherents of Islam to devotees of Chinese communism. Hundreds of 
thousands of Uighur Muslims are incarcerated in these camps.
    The lesson of China's anti-Uighur campaign is this: when it 
discerns a threat to the absolute control of its citizens, as it does 
with Uighur or Tibetan separatism, Beijing remains capable of the kind 
of systematic brutal repression of religious and ethnic minorities 
exhibited by the 20th century totalitarians, repression that today is 
routine practice across China's eastern border in North Korea. We 
should not deceive ourselves about Beijing's capacity for reverting to 
Mao's policies on religion, nor the negative impact it would have on 
long-term American interests.
    At present, however, Xi's Uighur policy is merely the most visible 
and inhumane aspect of his implementation of China's long-term strategy 
of manipulating and controlling religion. There are many elements of 
that strategy, but let me note three. First, Xi is tightening central 
government control over the national bureaucracy responsible for 
managing religion. Second, he is returning to and re-emphasizing a 
traditional Communist theme: prevent Chinese youth from being exposed 
to religion in ways that Beijing cannot monitor. Third, he is refining 
oppressive policies designed to control the other religions perceived 
as a threat, namely the Tibetan Buddhists, Protestants, and Catholics.
    Making SARA More Accountable to the Politburo. The bureaucracy that 
has carried out China's religion policy since the 1950s is the State 
Administration for Religious Affairs (SARA), and its predecessor, the 
Religious Affairs Bureau. This huge state agency, staffed in the early 
years by former members of the Red Army, has long been charged with 
controlling religion at the local and provincial level. National SARA 
officials are also given the responsibility of meeting with foreign 
officials. I met with former SARA director Ye Xiaowen in China and was 
present during some of his trips to the United States, where his job 
was to reassure Americans that religious freedom was protected in 
China.
    President Xi Jinping has decided to bring SARA nearer the Politburo 
by incorporating it into the United Front Work Department, a Communist 
bureaucracy historically charged with controlling China's ethnic 
minorities. This move is more than an adjustment of the wiring diagram. 
It is part of an overall tightening of government authority over civil 
society, especially its growing religious elements. In its latest 
Report on International Religious Freedom (for 2017), the State 
Department estimates that there are between 70 and 90 million 
Christians in China, about 12 million of them Catholics. The growth of 
Chinese Christianity, especially through conversion to Protestant 
denominations, is of great concern to the Communist government. Purdue 
sociologist and China expert Fenggang Yang predicts that within a 
generation China will have the largest Christian population in the 
world. Other religions are growing as well. Moving SARA closer to the 
Politburo ensures increased monitoring and control over the perceived 
threat posed by religion's growth in China.
    Fear of Religious Education. Like other elements of Xi's 
intensified policy, religious education has long been under the 
microscope of the Chinese bureaucracy. One of SARA's responsibilities 
has been to minimize the risk that religious education might lead to 
resistance among China's religious citizens. U.S. religious freedom 
diplomacy has made some attempt to address the resulting violations of 
parental rights. In 2002, Ambassador at Large for International 
Religious Freedom John Hanford reported to Congress an assurance by 
SARA Director Ye Xiaowen that parents were in fact free to teach 
religion to their children. There was a half-truth in Ye's assurance: 
parents could teach their children surreptitiously, but the 
consequences of being caught conveying, for example, core Catholic 
doctrine on issues such as religious freedom for all, the equal dignity 
of all persons created in the image and likeness of God, or the evil of 
abortion, were severe.
    The threat posed by such teachings is one reason for Xi's crackdown 
on religious education in China, in particular his policy of the 
``Sinicization'' of religious education. Under this policy, no child 
under 18 may attend religious services, or any kind of religious event. 
No one under 18 may receive religious education of any kind from 
anyone. Further, each Chinese religious community is responsible for 
ensuring its teachings--to the young and to everyone else--are 
compatible with ``the socialist society,'' and are supportive of the 
leadership of the Communist party.
    For Chinese Catholics, the body charged with carrying out such 
policies is the government-controlled ``Catholic Patriotic 
Association.'' Following Xi's instructions, it has drafted a detailed 
implementation document, which contains the following passage: ``The 
[Catholic] Church will regard promotion and education on core values of 
socialism as a basic requirement for adhering to the Sinicization of 
Catholicism. It will guide clerics and Catholics to foster and maintain 
correct views on history and the nation and strengthen community 
awareness.''
    Of course, the ``core values of socialism'' as practiced in China 
are exceedingly difficult to square with the core values of 
Catholicism. The Jesuit magazine America has noted correctly that Xi's 
religious education policy ``strikes at the very heart and future of 
the Catholic and other Christian churches, as well as that of other 
religions. It is an issue of utmost concern for Catholics in China who 
see it as an attempt by the Communist authorities to prevent young 
people from being educated or growing up in the faith.'' \2\
---------------------------------------------------------------------------
     \2\ Gerard O'Connell, ``Pope Francis to Chinese Catholics: the 
Church is Praying for You in the Midst of Difficulties,'' America 
Magazine, May 23, 2018; accessed at https://www.america
magazine.org/faith/2018/05/23/pope-francis-chinese-catholics-church-
praying-you-midst-difficulties
---------------------------------------------------------------------------
    Precisely so. It is worth asking how the Vatican's diplomatic 
rapprochement with the Chinese government will avoid making this 
problem worse, in part by appearing to abandon those Chinese Catholics, 
including bishops and priests, who bravely speak out against religious 
persecution and on behalf of religious freedom and human dignity.
                    systematic government oppression
    Finally, let me catalogue briefly some of the outrages that have 
afflicted religious groups other than the Uighur Muslims as part of 
Xi's policy. We are seeing increased destruction of houses of worship, 
including the bulldozing of churches, mosques, and Tibetan Buddhist 
schools and temples. Chinese officials are increasing their monitoring 
of the internet, including, and especially, religious content. We are 
seeing close monitoring and control of contributions to religious 
groups, the outlawing of proselytism, and the unjust imprisonment of 
priests, pastors, monks, nuns, and lay religious people.
    None of this is new, but it is now occurring as part of a broad and 
carefully planned national strategy with many moving parts. It is 
dangerous for the religious minorities of China, and dangerous for 
American interests.
               vatican diplomacy and chinese catholicism
    Against this stark background, let's turn to an assessment of the 
Provisional Agreement between the Vatican and China. The Vatican's 
stated goals are to unify Catholics in China by regularizing the 
appointment of bishops and ensuring their acceptance by the Holy 
Father. Allied objectives are to induce the Chinese government to stop 
persecuting Catholics, and--perhaps--to increase the number of converts 
to Catholicism.
    These are worthy goals, but it is difficult to see how the 
agreement will achieve them. After its failed attempt to destroy all 
religion in China during the Cultural Revolution, China's Communist 
government has spent decades attempting to manipulate and control the 
Catholic Church. Beijing created the treacherous divide between an 
official ``Catholic Patriotic Association'' controlled by the 
government, and an ``underground'' Church, that is, those bishops, 
priests, religious and lay Catholics who remain loyal to the Catholic 
Magisterium, the Holy Father, and fundamental Catholic teachings on 
human dignity and human rights. For decades the Chinese government has 
persecuted those Catholics who refuse to accept Communist control of 
their religion.
    Unfortunately, although the agreement is only two months old, there 
are already signs that its provisions will exacerbate this divide 
rather than heal it. Indeed, there are ample reasons to fear that, 
notwithstanding the good intentions of the Vatican, the deal they have 
brokered could make things much worse for the Church in China.
    The text of the agreement has not been made public, but its 
contours are generally known. Chinese Catholic bishops will now be 
chosen in a process that begins with local Communist-controlled 
Catholic Patriotic Associations. When a vacancy occurs in a bishopric, 
CPAs will present the names of candidates to fill the position. 
Diocesan priests and lay Catholics will then vote on the candidates for 
bishop. The winner's name will be sent to the government-controlled 
Council of Bishops, who will then provide it to the Vatican. There the 
nominee could either be accepted or rejected by the Pope.
    The Vatican apparently hopes that the Pope's veto power will ensure 
the orthodoxy of new bishops, facilitate reconciliation among China's 
divided Catholics, and make the Church more attractive to converts.
    It is certainly true that all Catholics need bishops, and that 
disagreements and confusion over who is and who is not a licit bishop 
are very harmful to the faithful and to the Church. But it is also true 
that the two-millennia-old doctrines of Petrine supremacy and apostolic 
succession nest the authority for consecrating bishops in one man, the 
successor of Peter--the Pope.
    The Vatican has in the past made practical concessions on the 
process by which bishops are approved by the Pope, in order to 
safeguard the existence of the Church. But this concession to a 
Communist government that by its nature seeks to control and, where 
possible, make fundamental alterations in Catholic doctrine, seems 
untimely and dangerous.
    One contemporary comparison is instructive. If the reports about 
how new Chinese Catholic bishops are to be chosen are correct, the 
process resembles the way parliamentary candidates are approved in 
theocratic Iran. There, no one can run for parliament unless he has 
been vetted by a panel of theologians for fidelity to the regime and 
the Supreme Leader.
    By the same token, it seems highly unlikely that a Chinese-
controlled Council of Bishops will forward to the Vatican the name of a 
bishop candidate who is faithful to the fundamental teachings of the 
Catholic Church. A man chosen in this process will doubtless not carry 
out one of the primary duties of a bishop--to be to his flock and to 
society at large a witness to the truths proclaimed by the Church 
concerning, for example, the sanctity of life, universal human dignity, 
and religious freedom. It seems far more likely that the names of 
candidates sent to Rome will be chosen at a minimum for their 
acquiescence to the Communist regime, if not for their fidelity to the 
regime's anti-Catholic purposes. Of course the Pope can veto such 
candidates ad infinitum, but the absence of a bishop does not harm the 
Chinese government. It hurts only the Catholics in China who need a 
faithful shepherd.
    The insidious effects of this Esau's bargain may already have shown 
themselves. Two ``official'' Chinese bishops attended the recent Synod 
on Youth in Rome, apparently at the invitation of Pope Francis. But 
these bishops were, and are, Communist apparatchiks. They both are 
leaders of the aforementioned Council of Bishops controlled by the 
government. Unaccountably, the two left before the Synod was over. 
Whatever the cause of their abrupt departure, it was not the act of 
bishops faithful to the Holy Father or the Catholic Church.
    Nor has the persecution of Chinese Catholics decreased. If 
anything, it has intensified since the signing of the agreement. Within 
a month of its signing, two Marian shrines had been destroyed by 
Communist officials in China. It is difficult to overstate the 
importance of these shrines to the Catholic faithful, and to their love 
of the Church. A government would destroy such structures only to 
threaten and oppress China's Catholics, to damage their faith and the 
Church itself. This, of course, is what Communist governments, 
including the Chinese government, do.
    To summarize: The procedure for choosing new Catholic bishops 
established by the Provisional Agreement does not seem likely to yield 
bishops that are faithful Catholics, or to unify China's 12 million 
Catholics, most of whom yearn for faithful shepherds, not 
functionaries. Persecution of Catholics is increasing, as it is for 
other religious minorities in China. Although persecution has sometimes 
led to more converts, that is neither the logic nor the intent of the 
agreement. Rather, the hope seems to be that a more unified, accepted, 
orthodox Catholic Church will be more attractive to converts. Again, it 
is difficult to see how the agreement might lead to such an outcome.
    In the face of such pathologies, what explains the Vatican's 
decision to negotiate and sign this deal? Allowing, again, for the hope 
that things will change--and I pray that they will--I would suggest 
that history provides a possible explanation. It could be that the 
Provisional Agreement reflects a return to the Vatican's failed Cold 
War ``realpolitik'' diplomacy of the 1960s, before it was changed by 
Pope John Paul II. That diplomacy failed from a want of realism about 
the evil of Communism, and deeply wounded the Church in parts of 
Eastern Europe. The lesson was then, and perhaps should be now, that 
the Vatican should not see itself as a power player on the world stage 
capable of changing the behavior of Communist governments by dint of 
its political diplomacy. We should recall that Vatican diplomacy was 
instrumental in facilitating America's 2015 restoration of diplomatic 
relations with the Communist regime in Cuba. Can anyone argue that the 
results have been good for the Church, or for religious freedom, in 
Cuba?
    On the other hand, the Vatican is arguably the only moral authority 
in the world constituted precisely to counter the root causes of 
totalitarian evil, just as Pope John Paul II did in the 1980s in 
collaboration with President Ronald Reagan and Prime Minister Margaret 
Thatcher. In my view, the Holy See's role should be now, as it was 
then, to press for human rights and, especially, for religious freedom 
for all religious communities, in China and elsewhere.
    Given the current vile assaults on the Uighur Muslims and Tibetan 
Buddhists, the Vatican should be standing with them by drawing the 
world's attention to what the Chinese government is doing in Xinjiang 
Province and in Tibet. As for China's Catholics, the Vatican should 
demand nothing less than libertas ecclesiae, the freedom of the Church 
to witness to its adherents, to the public, and to the regime, its 
teachings on human dignity and the common good (as those teachings are 
powerfully expressed in the Catholic document Dignitatis Humanae).
    I sincerely hope that I am wrong about the Sino-Vatican Provisional 
Agreement. I hope there are parts of the agreement that will alleviate 
these concerns and others that have been expressed by faithful 
Catholics, in and out of China. But I do not believe the Agreement as I 
have described it will help the Roman Catholic Church, China's Catholic 
minority, or the cause of religious freedom in China. The Chinese know 
what they are doing. The Vatican's charism in China, on the other hand, 
is not diplomacy, but witness to the truth about God and man.
    Thank you for inviting me to address this important topic.
                                 ______
                                 

                 Prepared Statement of Hon. Marco Rubio

    Good afternoon.
    This is a hearing of the Congressional-Executive Commission on 
China. The title of this hearing is ``The Communist Party's Crackdown 
on Religion in China.'' We will have one panel testifying today 
featuring:
    Mihrigul Tursun, a Uyghur Muslim who was interned in and survived a 
Chinese ``political reeducation'' camp; translating for Ms. Tursun is 
Ms. Zubayra Shamseden. She is the Chinese Outreach Coordinator at the 
Uyghur Human Rights Project.
    We will also hear from Tom Farr, President of the Religious Freedom 
Institute; and Samantha Hoffman, a Visiting Academic Fellow at the 
Mercator Institute for China Studies and Non-Resident Fellow at the 
Australian Strategic Policy Institute.
    Thank you all for being here.
    The Chinese Government has long imposed harsh policies against 
unregistered Christian churches, Uyghur Muslims, Tibetan Buddhists, 
Falun Gong practitioners and other religious adherents. The Commission 
maintains a Political Prisoner Database. Since the database's creation 
it has featured some 6,275 cases involving individuals detained because 
of their religion. Currently there are more than 750 active cases, and 
countless others whose names we may never know. The Commission 
consistently advocates for Members of Congress and the Administration 
to raise individual prisoner cases--and the Database is an invaluable 
tool in such efforts.
    Religious freedom in China is a vast topic and we will only begin 
to scratch the surface today. Consider the following:
    Uyghur Muslims are rounded up and interned in ``political 
reeducation'' camps. Tibetan monks and nuns are forced to undergo 
political re-education sessions. Falun Gong practitioners are 
reportedly sent to ``Legal Education Centers'' for indoctrination. 
Churches are shuttered, crosses removed, and Christian believers 
harassed and imprisoned.
    These are daily realities in Xi Jinping's China, leading many 
observers to describe the current wave of repression as the most severe 
since the Cultural Revolution. Even as the government has carried out 
an extensive campaign to ensure ideological loyalty to the Chinese 
Communist Party, impacting various sectors of society--not least of 
which are religious communities--it has also targeted those who 
represent and advocate for them.
    The ``709 crackdown'' saw scores of rights lawyers and advocates 
detained, arrested and tortured. Forced to ingest unknown medications 
and confess to crimes they did not commit, these brave men and women 
have been the tip of the spear in representing China's repressed and 
persecuted Christians, Uyghur Muslims, Tibetan Buddhists and Falun Gong 
practitioners.
    Of the rights lawyers who have courageously defended the rights of 
their fellow citizens in Chinese courts, several continue to serve 
sentences, including Wang Quanzhang, Jiang Tianyong, and Gao Zhisheng. 
Those who have independently documented the truth of Chinese citizens 
persecuted for their beliefs became targets of persecution themselves. 
One fearless example is citizen journalist and human rights defender 
Huang Qi. We are extremely concerned that he is in danger of making the 
ultimate sacrifice for telling these stories because his government is 
currently deliberately denying him access to medical treatment while he 
is in prison.
    However, set against this grim backdrop something remarkable has 
happened. The number of religious adherents in China has grown. This 
shows the utter failure of the government's policies in this regard.
    Today's hearing provides an opportunity to better understand the 
scale and scope of the current crackdown, to identify cross-cutting 
trends across different religions, to examine the elevated role of the 
United Front Work Department and what this means for China's faithful, 
and to put forward policy recommendations to address this crisis.
    The Commission has been particularly seized this year with the 
ongoing crackdown in the Xinjiang Uyghur Autonomous Region targeting 
Uyghurs and other ethnic minority Muslim groups. Our Annual Report, 
released in October, described these grave abuses at length--abuses 
which I believe constitute crimes against humanity.
    During a July hearing on Xinjiang we heard sobering testimony from 
Ms. Gulchehra Hoja, a Radio Free Asia Uyghur Service journalist and 
American citizen, who had been personally impacted by the crackdown. 
Dozens of her own family members have been detained or disappeared. As 
sobering as her story is, she is not alone. Not only have her fellow 
Uyghur Service journalists been similarly impacted, countless other 
Americans have as well. It seems that every week the Commission which 
we chair is contacted by Uyghurs living in the United States desperate 
for news about a loved one who has vanished into the growing labyrinth 
of camps.
    Today we are honored to have with us Ms. Tursun. Her story is 
harrowing, and we are truly grateful for her courage in coming forward.
    Also grabbing headlines in recent months is the growing repression 
facing Christians in China. Beijing authorities recently banned Zion 
Church, one of the largest unofficial Protestant churches in the city, 
which typically drew up to 1,600 worshipers on any given Sunday. Robbed 
of their worship space, members of Zion Church have reportedly taken to 
quietly meeting in parks and homes.
    In September, reports emerged of authorities burning Bibles, and 
compelling Christians to sign papers renouncing their faith. Meanwhile 
the Holy See and the Chinese Government reached an agreement this fall, 
the precise details of which have not been made public. Media outlets 
reported that Beijing would recognize the Pope as the head of the 
Catholic Church in China; the Vatican would recognize seven 
excommunicated Chinese bishops appointed by PRC authorities; and 
Chinese authorities would appoint future bishops, while the Pope would 
have veto power over their nomination.
    There is a growing concern that the agreement may put in greater 
peril those Catholic believers who maintain as part of their faith that 
they cannot worship under clergy that have been selected by the Chinese 
Government. There is also alarm that any deal betrays the memory of 
Catholics who refused to renounce papal supremacy and were persecuted 
for it, while demoralizing those who still stand faithful.
    As the hearing title denotes, the Communist Party is at the center 
of this crackdown. The Party Central Committee issued a massive 
restructuring plan for Party and government agencies to be completed by 
the end of 2018. The United Front Work Department--which Xi Jinping, 
like Mao before him, calls the ``magic weapon'' of the Communist Party, 
was further empowered in the reorganization. This year its role in 
overseeing religious affairs was expanded, underscoring the Party's 
enduring fear that the growth of religious belief is a threat to its 
grip on power.
    As the Party conducts United Front work to ensure that outside 
groups are in line with its agenda, the evidence is also clear that 
Chinese officials are only too willing to expand their repression 
overseas and to intimidate and harass Americans and legal permanent 
residents of the United States, including those in the Uyghur 
community.
    Ms. Tursun's story reminds us that China's suppression of religious 
faith and religious communities is real. It is evil, and it is too 
horrendous to ignore. In the 21st century, we simply cannot accept the 
mass internment of individuals based on their religious faith or 
cultural identity; nor can we accept the stamping out of all 
``unofficial'' religious communities in China that maintain as a matter 
of faith that they do not want to be beholden to the leadership of the 
Chinese Government.
    Without objection, we'll keep the hearing record open for 48 hours 
to submit additional relevant materials.
    Please join me in welcoming our witnesses. We will begin with Ms. 
Tursun. And I would stress at the outset, that the personal safety of 
Ms. Tursun and her family is paramount. It will be taken very seriously 
by the United States Government if she or members of her family 
experience any sort of retaliation from the Chinese Government because 
she has spoken out about her experience.
    Before we adjourn, I'd like to thank Congressman Smith for his 
partnership on the Commission and in the cause of human rights in 
China. This is the final CECC hearing for this Congress. As such, it 
marks the end of our formal collaboration as chair and cochair. 
Throughout the course of the last 4 years I have greatly valued his 
passion and commitment to these vital issues--something which is 
desperately needed today. Through hearings, legislation, advocacy, and 
meticulous research and reporting, the Commission has given voice to a 
cause which is ultimately about human dignity. Bipartisanship is part 
of the DNA of this Commission and I am confident that this work will 
continue in the next Congress; but as we mark the end of this chapter, 
I thank you.
    The record will remain open for 48 hours. The hearing is adjourned.

                                 ______
                                 

              Prepared Statement of Hon. Christopher Smith

    The current assault on religion in China is the most comprehensive 
attempt to manipulate and control religious communities since the 
Cultural Revolution. What is happening under Xi Jinping's leadership is 
a systematic effort to transform the very nature of certain religious 
communities.
    Regulations on religious affairs issued in February tightened 
existing restrictions, and new draft regulations will clamp down on 
religious expression online. Churches, mosques, and temples have been 
demolished, crosses destroyed, children under the age of 18 are 
prohibited from attending services, and the Communist Party is now 
commissioning new religious texts that remove content unwanted by the 
atheistic Communist Party.
    Xi Jinping talks about realizing the ``China Dream''--but when 
Bibles are burned, when a simple prayer over a meal in public is an 
illegal religious gathering, and when over a million Uyghur and Kazakh 
Muslims are interned in ``re-education camps'' and forced to renounce 
their faith--that dream is a nightmare.
    Xi Jinping's war on religion is also a distinct challenge to U.S. 
religious freedom diplomacy and to international standards on the 
freedom of religion.
    There is a dire need to shine a light on the stunning and 
outrageous detention of nearly a million Uyghurs and other Muslim 
ethnic minorities. The Senator and I have tried to be a voice for those 
repressed. Ms. Tursun's powerful testimony today reminds us that we 
cannot be silent when the Chinese Government is constructing a high-
tech police state in Xinjiang Province whose goal is the forced 
assimilation of an entire ethnic minority population and the 
``sinicization'' of their religious beliefs and practices.
    I commend the Administration--Secretary Pompeo and Vice President 
Pence--for speaking out forcefully. I would urge the Administration to 
support the bipartisan Uyghur Human Rights Policy Act that Senator 
Rubio and I introduced and to sanction Chinese officials and businesses 
complicit in likely ``crimes against humanity.''
    In the past year, pressure has mounted on independent Protestant 
and Catholic churches. Clergy are in prison, churches closed, and the 
human rights lawyers who defend religious believers have been jailed, 
disappeared, or tortured into silence. Gao Zhisheng, Jiang Tianyong and 
so many others have been disappeared, detained, and tortured for 
standing up against persecution.
    For anyone who wants to be inspired, I would recommend reading the 
open letter signed by over 500 Protestant leaders. In the midst of an 
intense campaign of repression, they have said that ``For the sake of 
the Gospel, we are willing to suffer all external losses brought about 
by unfair law enforcement. Out of a love for our fellow citizens, we 
are willing to give up all of our earthly rights--for the sake of the 
Gospel, we are prepared to bear all losses--even the loss of our 
freedom and our lives.''
    Now this is the type of courageous conviction that requires not 
only our admiration but our action.
    Let me turn now to the issue of Catholicism in China where a deal 
has been struck that will reportedly give the Pope veto power over 
Chinese Government-approved candidates for bishop. Vatican Secretary of 
State Cardinal Pietro Parolin admits ``it is not a good deal'' but 
believes it was important to unify the ``underground'' Catholic Church 
and the state-sanctioned Catholic Patriotic Association. Cardinal 
Joseph Zen, bishop emeritus of Hong Kong, has questioned whether 
Vatican officials making these decisions ``know what true suffering 
is.''
    The reports are that this deal is provisional and full details are 
secret. The devil will be in the details--including the fate of 
underground churches, the 30 underground bishops appointed previously 
over Beijing's objection, and Vatican relations with Taiwan. But with 
all the efforts under way to forcibly sinicize religion, it certainly 
seems an odd time to strike a deal with Xi Jinping's China.
    I hope and pray this agreement will bring true religious freedom 
for Catholics in China--who have suffered so much to maintain their 
faith--but the wisdom of making this deal, at this time, is certainly 
in doubt. Since the agreement was reached, underground priests are 
detained, pilgrimage sites closed, crosses toppled from churches, and 
United Front Works Department officials, in October, convened a ``re-
education'' session for priests.
    The President and Xi Jinping will meet in Argentina this week, 
seeking ways to defuse U.S.-China tensions. I think it should be 
conveyed to Xi Jinping that his war on religion is a counterproductive 
strategy--taking a hammer and sickle to the cross or jailing a million 
Uyghur Muslims will only ensure that a tougher China policy will have 
widespread, bipartisan and even global support.
    I want to commend the Senator from Florida for his leadership as 
CECC chair this term. We have had a very productive and effective 
partnership and I enjoyed our four years together as cochairs. I 
believe the profile of the CECC has been raised significantly as a 
voice for the repressed and as a generator of new ideas, particularly 
as the U.S. is reconsidering its strategic posture for dealing with 
China.
    We have raised alarms about threats posed to Uyghur Muslims, to 
human rights lawyers and religious communities, and to Hong Kong's 
autonomy. We have also effectively raised the issue of the Chinese 
Government's coercive political influence operations globally. I have 
enjoyed our partnership and look forward to working with Senator Rubio 
in Congress's next term.
    Lastly, I want to commend the work of Paul Protic, my appointee to 
the CECC since 2011, who has worked as staff director. Paul was the 
campaign manager for my first reelection campaign in 1982, so we go 
back many years. Paul is a veteran of many legislative battles in 
Congress and was a particularly effective advocate as we fought to 
ensure that Chen Guangcheng and his family could come to the U.S. With 
the House majority returning to the Democratic Party next year, Paul 
will be leaving the CECC. He has been a patient and effective leader 
and I want to warmly thank him for his service.

                       Submissions for the Record

                               __________

 Representative Cases From the CECC's Prisoner Database, Submitted by 
                             Senator Rubio
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


   Letter regarding Statement by Concerned Scholars on China's Mass 
      Detention of Turkic Minorities, Submitted by Sean R. Roberts

                                                      November 20, 2018
The Honorable Marco Rubio, Chair
The Honorable Christopher Smith, Cochair
Congressional-Executive Commission on China
243 Ford House Office Building
Washington, DC 20515

Re: November 28 hearing on ``The Communist Party's Crackdown on 
Religion in China''

Dear Senator Rubio and Representative Smith:

    In connection with your November 28 hearing on ``The Communist 
Party's Crackdown on Religion in China,'' I would like to submit for 
the Congressional Record a Statement prepared by concerned scholars on 
the crisis facing Uyghurs and other Turkic minorities in the Xinjiang 
Uyghur Autonomous Region (XUAR) of China. This statement was drafted 
collectively by a group of scholars with long track records of working 
with Uyghurs and/or on this region. This group of scholars neither 
represents any specific organization nor the institutions where they 
are employed. Rather, they are acting together as concerned scholars 
out of a collective desire to raise awareness of the seriousness of the 
mass human rights abuses presently taking place in northwest China and 
to call on the international community to take action against these 
abuses.
    This statement has been signed by a total of 496 scholars from 36 
countries around the world as of 2:30 pm on November 30, 2018. While 
most of these scholars were not involved in drafting the statement, by 
signing it, they are affirming their agreement with its description of 
the situation in the XUAR today and its calls for international action 
to address that situation. It is our intention to keep the statement 
publicly available on the internet at www.concernedscholars.home.blog 
until the mass internment camps in the XUAR are closed and all those 
imprisoned are released.
    The text of the statement is attached to this letter for the 
Commission's reference.

                      Sincerely yours, 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                      Director, International Development Studies
                      Elliott School of International Affairs
                      The George Washington University

                                 ______
                                 

  Statement by Concerned Scholars on China's Mass Detention of Turkic 
                               Minorities

                                                      November 26, 2018

    As concerned scholars who study China, the Xinjiang Uyghur 
Autonomous Region (XUAR), Central Asia, and other related regions of 
the world, we issue this statement to highlight our concerns and to 
call the international community to action in relation to the mass 
human rights abuses and deliberate attacks on indigenous cultures 
presently taking place in China's XUAR. The signatories to this 
statement are united in viewing the present situation in this region of 
China as one of significant international concern. This situation must 
be addressed to prevent setting negative future precedents regarding 
the acceptability of any state's complete repression of a segment of 
its population, especially on the basis of ethnicity or religion.
                               background
    The Chinese state is engaged in the mass detention of Uyghurs, 
Kazakhs, Kyrgyz and other Muslim minorities in their homelands in the 
Central Asian borderlands of Northwest China. Researchers estimate that 
around one million people have been detained without trial. In the 
camps, these detainees, most of whom are Uyghur, are subjected to 
deeply invasive forms of surveillance and psychological stress as they 
are forced to abandon their native language, religious beliefs and 
cultural practices. Outside of the camps, more than 10 million Turkic 
Muslim minorities in the region are subjected to a dense network of 
surveillance systems, checkpoints, and interpersonal monitoring which 
severely limit all forms of personal freedom.

What is happening in the camps? 

    Until October 2018 the Chinese authorities officially denied the 
existence of the camps. They have since declared that the camps are 
``vocational training'' schools which Uyghurs, Kazakhs, and other 
Muslim minorities attend voluntarily. In programing featured on state 
television on October 16, Uyghur detainees were shown learning Chinese, 
receiving training in industrial production, and discussing their 
regret concerning past religious and ethno-national beliefs while 
proclaiming a new-found love for the Chinese political system. Yet in 
many of the shots at the camp, it is clear that the detainees are being 
monitored by numerous cameras.
    Reports from eyewitnesses have noted malnourishment and severe 
psychological distress among the detainees, and some report detainees 
being forcibly given psychiatric drugs. In some cases, shoelaces and 
belts are confiscated, due to the prevalence of self-harm and suicide. 
Those who do not fully participate in political reeducation are often 
subjected to beatings, solitary confinement, and forms of religious and 
psychological violation. There have been numerous reports of deaths in 
the centers, particularly among the elderly and infirm, but also of 
younger people who were in good health when they were taken. While 
there are frequent reports of more people entering the camps, there are 
very few reports of those being released.

Why is this happening now?

    China's present signature foreign policy initiative is the ``Belt 
and Road Initiative'' (BRI) that seeks to connect the PRC economically 
to the rest of the Eurasian continent through large infrastructure 
projects that will stimulate international trade. The western and 
south-western components of the BRI require the XUAR to serve as a 
transportation and commercial hub to trade routes and pipelines that 
will join China with Central and South Asia, the Middle East, and the 
entirety of Europe. As a result, the XUAR has become a very important 
strategic region for China, and the state views its indigenous 
populations as an obstacle to developing its vision for this future 
critical center of international commercial networks.

What are the implications of the mass detention system in the XUAR for 
the rest of China?

    China's approach in the XUAR is consistent with the CCP's broader 
implementation of the concept of ``social management'' as a means of 
preserving its hold on power. For the Party, the goal of ``social 
management'' and the ``social credit'' system is to ensure that the 
population internalizes the Communist Party's ideology and supports the 
Party's hold on power. In the XUAR, this requires that key markers of 
Turkic Muslim identity such as religious observance and language be 
forcibly ``cured'' or ``eradicated'' through mass incarceration and 
``re-education.'' There are concerns that such extreme measures could 
be replicated to address other segments of the Chinese population who 
are perceived as threatening the Party's monolithic vision of the PRC.

What are the implications for the rest of the world?

    China has defended its mass incarceration of Turkic Muslims on the 
basis of counter-terrorism. However, it is also apparent that China is 
both seeking to embed its Xinjiang-focused policies in counter-
terrorism cooperation with international partners and to export the 
methods and technologies that have underpinned its ``surveillance 
state'' in Xinjiang. If what is happening today in the XUAR is not 
addressed by the international community, there is a likelihood that we 
could see its replication in other authoritarian states who have used 
the label of ``terrorist'' to describe those who peacefully resist 
state hegemony.
                           policy suggestions
    There is now significant discussion among US and European leaders 
regarding economic sanctions directed at key Chinese leaders and 
security companies. There is also discussion of new forms of assistance 
to Uyghur and Kazakh asylum seekers outside of China and the 
establishment of a Congressional Act in the US that would earmark 
resources to protect the human rights of Uyghurs inside China. The 
signatories support these initiatives and call for the following 
additional measures to be taken by the international community:

    (1) We call on states and institutions to issue formal statements 
demanding that Xi Jinping and Chen Quanguo immediately abolish the 
``transformation through education'' detention system and release all 
Uyghur, Kazakh, Kyrgyz, and other detainees.

    (2) We call on states and institutions to demand and impose 
economic sanctions on Chinese authorities and technology companies in- 
and outside of China, which are benefiting from this process. Such 
sanctions should go beyond lower-level officials and target Chen 
Quanguo, under whose leadership in the region this system of mass 
incarceration has been instituted. Likewise, they should include high-
profile technology companies, whose concessions to the Chinese 
government on internet surveillance have implicated them in the 
repression presently taking place in the XUAR.

    (3) We call on states and institutions to introduce legislation 
joining Germany and Sweden in granting expedited asylum to Uyghurs, 
Kazakhs, and other Turkic Muslim minorities from China and a blanket 
refusal to deport Uyghurs and other Turkic Muslims to China.

    (4) We call on Beijing to cease its extra-territorial campaign of 
harassment against members of the Uyghur diaspora community around the 
globe and urge relevant states and institutions where those communities 
reside to make the protection of Uyghurs a matter of priority in their 
diplomatic relations with Beijing.

    (5) We call on the thirteen UN member states that expressed grave 
concern about the existence of this system of mass incarceration at the 
recent UN Universal Periodic Review of China's human rights record to 
spearhead a movement for UN action aimed at investigating this mass 
internment system and closing the camps. Additionally, we call on those 
states that have yet remained silent on this issue, including Muslim-
majority states and those in Central Asia whose own citizens or 
citizens' relatives have been interned, to join in this action.

    (6) We call upon countries presently engaged in negotiations 
regarding projects that are part of the Belt and Road Initiative, 
particularly those that are linking to the XUAR as a hub for trade and 
commerce, to make their involvement in these projects contingent on the 
closing of the mass internment camps and the ceasing of other means of 
mass repression to which the Turkic minorities in this region are 
currently subjected.

    (7) We call upon academic institutions around the world with formal 
partnerships with state-run Chinese academic institutions to express 
their concern about the present situation in the XUAR with their 
colleagues and to consider suspending their partnerships until the 
camps have been closed and all detainees are released.

    [This document has been signed by 690 scholars from 42 countries as 
of May 1, 2019.]
                          Witness Biographies


  Mihrigul Tursun, survivor of Chinese ``political reeducation'' camp

    Mihrigul Tursun is a 29-year-old Uyghur woman from China's Xinjiang 
Uyghur Autonomous Region who gave birth to healthy triplets in Egypt 
while her husband was working there in 2015. Soon after her children 
were born, she returned to China seeking help from her parents to raise 
them but was detained by authorities upon her return and the triplets 
were taken from her. Authorities detained her in a prison for two 
months, and then released her because her children were suffering from 
a severe illness that required surgery. But one of her sons died under 
mysterious circumstances while being cared for in a local hospital. In 
the years following her son's death, authorities detained her two 
additional times, including in a ``political reeducation'' camp, and 
subjected her to torture, beatings, and interrogation in detention.

       Dr. Thomas F. Farr, President, Religious Freedom Institute

    Dr. Thomas Farr is President of the Religious Freedom Institute, a 
non-profit that works to advance religious freedom globally. A leading 
authority on international religious freedom, Dr. Farr served for 28 
years in the U.S. Army and the U.S. Foreign Service. In 1999 he became 
the first director of the State Department's Office of International 
Religious Freedom (IRF). He later directed the Witherspoon Institute's 
IRF Task Force, was a member of the Chicago World Affairs Council's 
Task Force on Religion and Foreign Policy, taught at the National 
Defense University, and served on the Secretary of State's IRF working 
group. From 2008-2018, Dr. Farr was Associate Professor of the Practice 
of Religion and World Affairs at Georgetown University. He also 
directed Georgetown's Religious Freedom Project. A Ph.D. in History 
from the University of North Carolina, Farr is senior fellow at Baylor 
University's Institute for Studies of Religion, and a consultant to the 
U.S. Catholic Bishops Conference. His major works include ``World of 
Faith and Freedom: Why International Religious Liberty Is Vital to 
American National Security'' (Oxford University Press, 2008) and U.S. 
Foreign Policy and International Religious Freedom: Recommendations for 
the Trump Administration and the U.S. Congress, with Dennis Hoover 
(Religious Freedom Institute, 2017).

 Dr. Samantha Hoffman, Visiting Academic Fellow, Mercator Institute for

    China Studies and Non-Resident Fellow, Australian Strategic Policy

             Institute's International Cyber Policy Centre

    Dr. Samantha Hoffman is a Visiting Academic Fellow at the Mercator 
Institute for China Studies, and a Non-Resident Fellow at the 
Australian Strategic Policy Institute's International Cyber Policy 
Centre. Her work explores the domestic and global implications of the 
Chinese Communist Party's ``autonomic'' approach to state security and 
social management. Her research offers new ways of thinking about how 
to understand and respond to China's pursuit of artificial intelligence 
and big data-enabled capabilities to augment political and social 
control. She holds a Ph.D. in Politics and International Relations from 
the University of Nottingham (2017), an M.Sc. in Modern Chinese Studies 
from the University of Oxford (2011), a B.A. in International Affairs 
from Florida State University (2010), and a B.A. in Chinese Language 
and Culture from Florida State University (2010).


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
